<html>
<title> - THE ADMINISTRATION'S APPARENT REVOCATION OF MEDICAL DEFERRED ACTION FOR CRITICALLY ILL CHILDREN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     THE ADMINISTRATION'S APPARENT
                     REVOCATION OF MEDICAL DEFERRED
                   ACTION FOR CRITICALLY ILL CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 11, 2019

                               __________

                           Serial No. 116-59

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov                       
                        
                               __________
                                 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-953 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                        
                       
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Frank Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn Maloney, New York            Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Thomas Massie, Kentucky
Robin Kelly, Illinois                Mark Meadows, North Carolina
Jimmy Gomez, California              Jody Hice, Georgia
Alexandria Ocasio-Cortez, New York   Michael Cloud, Texas
Eleanor Holmes Norton, District of   Carol D. Miller, West Virginia
    Columbia
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 11, 2019...............................     1

                               Witnesses

Panel 1

Ms. Maria Isabel Bueso Barrera, Patient with a Rare Disease
Oral Statement...................................................     7
Mr. Jonathan Sanchez, Cystic Fibrosis Patient and Medical 
  Deferred Action Applicant
Oral Statement...................................................     8
Ms. Shoba Sivaprasad Wadhia, Clinical Professor of Law, Director, 
  Center for Immigrants' Rights Clinic, Penn State Law School
Oral Statement...................................................    10
Dr. Fiona S. Danaher, MD, MPH, Pediatrician, MGH Chelsea 
  Pediatrics and MGH Child Protection Program, Co-Chair, MGH 
  Immigrant Health Coalition, Massachusetts, General Hospital for 
  Children, Instructor in Pediatrics, Harvard Medical School
Oral Statement...................................................    11
Mr. Anthony Marino, Director, Immigration Legal Services, Irish 
  International Immigrant Center
Oral Statement...................................................    13
Mr. Thomas Homan, Former Director, U.S. Immigration and Customers 
  Enforcement
Oral Statement...................................................    14

Panel 2

Mr. Timothy Robbins, Acting Executive Associate Director, 
  Enforcement and Removal Operation, U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security
Oral Statement...................................................    48
Mr. Daniel Renaud, Associate Director, Field Operations 
  Directorate, U.S. Citizenship and Immigration Services, 
  Department of Homeland Security
Oral Statement...................................................    49

Written opening statements and witnesses' written statements are 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.
                           
                           INDEX OF DOCUMENTS

                                 ------                                
The documents listed below are available at: https://
  docs.house.gov.

  * 9 National Non-Profits' Statement for the Record

  * 16 National Non-Profits' Statement for the Record

  * AILA Client Letters

  * AILA Statement for the Record

  * AAP Statement for the Record

  * Amer Fed of Teachers (AFT) Statement

  * ASPN Statement

  * CLINIC Statement

  * CWS Statement

  * Epilepsy Foundation Statement

  * IIC Statement

  * Little Lobbyists Statement

  * Mass Law Reform Institute (MLRI)

  * Mount Sinai Statement for the Record

  * NDY Statement

  * NORD Statement

  * NYLAG Statement

  * TNAAP Statement

  * Unity Health Care Statement

  * Martin Lawler, Immigration Attorney, Statement

  * Letter of Support from Ms. Maria Abreu for Ms. Bueso to stay 
  in the U.S; submitted by Rep Ocasio-Cortez

 
                     THE ADMINISTRATION'S APPARENT
                     REVOCATION OF MEDICAL DEFERRED
                   ACTION FOR CRITICALLY ILL CHILDREN

                     Wednesday, September 11, 2019

                  House of Representatives,
  Subcommittee on Civil Rights and Civil Liberties,
                         Committee on Oversight and Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:13 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Maloney, Wasserman 
Schultz, Gomez, Ocasio-Cortez, Pressley, Norton, Cummings (ex 
officio), Roy, Massie, Meadows, Hice, Cloud, Miller, Keller, 
and Jordan (ex officio).
    Also present: Representatives DeSaulnier, Hill, Tlaib, and 
Grothman.
    Mr. Raskin. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    Today's subcommittee hearing is about the administration's 
decision to end consideration of request to defer deportation, 
including for critically ill children.
    We have a number of members who are waiving on today, and 
we are delighted to have them. And without objection, I will 
waive on Katie Hill from California, Mark DeSaulnier from 
California, Rashida Tlaib from Michigan, and Glenn Grothman 
from Wisconsin, all members of the broader Oversight Committee.
    I now will recognize myself for five minutes to give an 
opening statement.
    I want to welcome all of our witnesses and their families 
who've come from all over the country today. And I want to 
thank them for testifying, particularly Ms. Bueso, who is from 
Mr. DeSaulnier's district in California, and Mr. Sanchez, who 
is from Ms. Pressley's district in Massachusetts. It's hard to 
imagine what the past month has been like for you and for your 
families, and I appreciate your coming forward bravely to share 
your stories with us.
    I also want to extend my gratitude to Ms. Pressley and Mr. 
DeSaulnier for their characteristically excellent efforts to 
address this current turn of events.
    And I also want to thank our other witnesses, Dr. Danaher, 
Mr. Marino, and Mr. Homan for coming today.
    We are here to discuss the Trump administration's decision 
to deport critically ill children and their families from our 
country. This policy is completely at odds with American 
values. People come to our country to receive lifesaving 
treatment from our pioneering doctors and hospitals and 
researchers, and we do not expect our government to implement 
life-denying policies.
    Last month, without notifying Congress or the public, the 
U.S. Citizenship and Immigration Services, USCIS, began denying 
all nonmilitary deferred action requests. Most of these 
requests are made by sick immigrants and their families who are 
seeking to stay in the United States to receive critical 
medical care that is simply not available to them in their home 
countries. The administration decided to cast out some of the 
most vulnerable and defenseless people on Earth, and there are 
families across America whose children would essentially be 
sentenced to death eventually by this stunningly harsh and 
cruel policy.
    Ms. Bueso, who is here today, was invited to the U.S. to 
participate in a medical study on her disease that extended her 
life expectancy by 10 years. To live, she relies on a weekly 
infusion that's unavailable in her home country, and she'll 
tell you about it.
    Mr. Sanchez, Jonathan, whom I've met, suffers from cystic 
fibrosis, a disease that my family knows well. And I am also 
the proud representative of the Cystic Fibrosis Foundation in 
Montgomery County, which has led a campaign that has absolutely 
transformed the treatment of cystic fibrosis and made America 
the leader in pioneering medical research and change in that 
disease.
    Jonathan's parents lost his older sister to the disease due 
to dramatically inferior and substandard medical care in 
Honduras, and he will tell you about that. And now they face 
the prospect of being sent back there.
    Joaquim Norville, a seven-year-old boy from Guyana, was in 
the United States when he suffered a seizure and was diagnosed 
with epilepsy. He was visiting his grandparents who are U.S. 
citizens. Thanks to deferred action, his grandparents did not 
have to send him back to Guyana where continuing treatment for 
his collapsed lung, colon infection, and the removal of his 
large intestine was essentially impossible. His mother fears 
that returning to Guyana now would be, quote, "signing my son's 
death warrant."
    Serena Bodia, a 14-year-old with a congenital heart 
condition, has already gone beyond the life expectancy given to 
her by doctors in Spain. I think actually Serena is 16. I'm not 
sure if I've got the right information there, but she'll 
correct us.
    An eight-year-old girl in Miami suffering from nerve cancer 
relies on her dad to take her to monthly treatments in New 
York. Her father needs deferred action to stay in the United 
States with his daughter.
    A man from Venezuela has been able to care for his wife who 
suffers from a brain blood flow malformation, and his daughter 
has metastatic stage IV neuroblastoma. The administration told 
him to leave the country this month or to face deportation.
    This new policy threatens sick immigrants who may be forced 
to leave America and end their lifesaving treatment. It 
threatens U.S. citizens and lawful residents who rely on 
immigrant family members for financial and emotional support 
while they're here. It threatens crucial medical research and 
progress by undermining clinical trials that rely on the 
participation of immigrants with rare diseases, and we'll hear 
about that.
    The officials responsible for this policy must be held 
accountable for their recklessness and their failure to take 
even the most basic steps to determine the incalculable harm 
that would have resulted from this policy.
    The administration's decision to expel these immigrants was 
exacerbated by the limited time they were given to leave. 
According to medical experts, 33 days is not nearly enough time 
to even attempt to arrange for proper continuity of medical 
care overseas.
    For days, USCIS and ICE squabbled about who was responsible 
for the decision and how to implement it and whether there was 
indeed a new process for stay requests. As they bickered, 
families were left in panic with all-consuming dread and 
terror. USCIS claimed that ICE would consider stay requests, 
but ICE denied those reports.
    The only recourse ICE offers would require vulnerable 
families to risk deportation before they can request a stay of 
removal. This is the unnecessary collateral damage facing every 
family caught between this bureaucratic tug of war between 
USCIS and ICE. It appears that no one in either agency 
contemplated or cared about the full implications of this 
change for the families involved.
    This administration's recent so-called reversal of the 
policy does not resolve the life-and-death consequences faced 
by many more families. After these heart-wrenching realities 
became public, the administration backtracked and announced 
that it would reopen all deferral requests that were pending on 
August 7, but there are still critical questions left 
unanswered.
    Will anyone who applied after August 7 be eligible for 
relief? Does the administration actually plan to grant relief 
to those who have reopened applications? What will happen to 
families that are currently receiving deferred action but will 
need to reapply once their two-year stay expires?
    Without answers to these key questions, the 
administration's reversal appears primarily aimed at avoiding a 
tidal wave of criticism from the public. It gives the 
appearance of change without necessarily altering the essence 
of the policy.
    The administration must immediately and completely reverse 
this policy and continue granting deferred action requests in 
cases of people who are here today and those like them. There 
are people who applied after August 7 who are still facing the 
33-day deadline to leave America, a deadline that will arrive 
within days or weeks for some people. That's unacceptable.
    There is no justification for the incompetence of this 
decision, and there's no excuse for the recklessness displayed 
by our government in this whole affair. I look forward to 
having a serious and rigorous analysis of these events and a 
discussion of how we can all move forward together to repair 
the damages.
    It's now my honor to recognize our distinguished ranking 
member, Mr. Roy from Texas, for his opening statement.
    Mr. Roy. Well, I thank the distinguished chairman. It's 
nice to see you back and to be back here.
    I appreciate the witnesses for taking the time out of your 
schedules and your lives for being here. And I appreciate your 
testimony today.
    I think that as we gather here today, it is important to 
remember and reflect that today is September 11, that we as a 
Nation reflect on the tragedy of the terrorist attacks 18 years 
ago today. A number of us on a bipartisan basis gathered on the 
Capitol steps today in a moment of silence, and our hearts and 
prayers and thoughts are all with, obviously, those affected by 
it and the family members.
    But importantly, also to remember those who in the law 
enforcement community, first responders, people that ran toward 
buildings, and really just want to thank all of our law 
enforcement community, including you, Mr. Homan, and your life 
of public service and law enforcement in supporting the United 
States.
    I would also, you know, note that I want to thank the 
chairman for moving the hearing to today. There was some 
discussion of it occurring during August. Last week, would have 
been very difficult for people to make it, so I'm glad that 
it's this week so we can have a better attendance.
    I think as we discuss this topic, and it's an important 
topic, that perspective is important. This past summer, we have 
seen, obviously, an unprecedented surge in migrants crossing 
into our country. We saw a growing humanitarian crisis at our 
border. At the end of August, apprehensions for the Fiscal Year 
are around 818,000, and we've already outpaced the total for 
2018, which was 521,000.
    We've seen agencies, such as Border Patrol and ICE, 
struggling to fulfill their mission. You know, the committee 
held three hearings in the month of July alone on immigration 
and border security.
    And during August, I personally made a visit to DHS 
facilities in McAllen, Texas. I was pleased to be joined by my 
friend, the gentleman from Ohio, Mr. Jordan, as well as my 
friend from Texas, Mr. Cloud, to look and see what's occurring 
down on our southern border.
    And they're important conversations to have. As a Member of 
Congress, as an American, as a Christian, we should be 
compassionate and do the right thing. We should help those in 
need.
    The question, though, is that we are a Nation of laws, 
we're a Nation of sovereignty, and we are willing--and, you 
know, what question I think is important to ask is are we 
willing to send a clear message of what those laws are and then 
figure out how to navigate within a system of rule of law so 
that we can understand how it impacts our Nation who pays for 
healthcare and what the expectations are.
    My understanding, for example, is the average number of 
cases that we're just talking about today is about 1,000 a 
year, give or take. That's an important number. These are real 
people. And for each one of those, one of those thousand, this 
is extremely important and we need to figure out the right 
processes and make them work.
    Let's keep in mind we're talking about 1,000 cases, and 
right now, as we previously discussed, we've had almost 900,000 
people who have crossed and been apprehended into our country 
since last October 1. That's an enormous number. Of them, 
almost 600,000 have been caught and released into our Nation. 
These are matter of fact.
    We've had a significant onslaught where CBP and ICE are 
trying to figure out what to do. We've got an overwhelmed 
system. USCIS is overwhelmed. The entire system is bulging at 
the seams because we, this body, refuse to do our job, simply 
put. We're not doing our job to send clear signals and to make 
sure that the resources are there to adequately deal with the 
situation at hand.
    And, you know, let's think about, you know, the people who 
deserve our compassion. I think those people, all the people 
that we're talking about here deserve our compassion, including 
those of those 900,000 I just talked about who are abused on a 
journey because they're going through a tough journey with 
illicit illegal organizations in Mexico, who are often in stash 
houses, who are often being held for ransom, women, girls 
abused on a journey, and we ignore that while we talk about how 
great open borders are, for some reason the false name of 
compassion, how good that is in our southern border.
    Let's talk about the 600,000 that were caught and released 
and are in a sort of perpetual cycle in the United States. 
Let's talk about human trafficking in this country that is 
getting worse because we're allowing illegal organizations to 
extend into our communities.
    And let's talk about the compassion owed to our law 
enforcement personnel, CBP, ICE, and other agents who have been 
overwhelmed and are being trashed on a daily basis by Members 
of the U.S. Congress, trashed with deceitful and outright lies, 
disparaging these law enforcement officers doing their job.
    And today, though, as we discuss medical deferred action, I 
think we should ask some serious questions. Does the process we 
have work? Yes or no. Is anybody left outside looking in who 
doesn't know what the rules of the road are? Let's establish 
what the rules of the road are and then let's follow them and 
let's send clear signals as to what those are, and then let's 
operate in the right humane and compassionate way to handle 
those questions.
    What agency is best situated to handle status questions for 
those seeking healthcare? Is it USCIS? Is it ICE? Is it anybody 
else? Let's answer those questions honestly and not hide behind 
rhetoric. Let's set a clear message, what are the rules, and 
then follow them.
    You know, I'm encouraged today that the agencies are here 
to correct any information or misinformation about the current 
status of pending deferred action requests. My understanding is 
that USCIS has had 791 deferred action requests pending. 
Between August 7 and September 5, denial letters went to 424 of 
those requests. All of those 424 claims have been reopened and 
will be evaluated and have received letters indicating that 
truth.
    I would certainly love to know the question as to what 
happened in terms of the letters going out, how that occurred, 
and then now the reversal of that. I think we should look into 
that.
    USCIS did not issue any issue to appear, NTAs, for those 
424 requests. That's what I understand. Since August 7, USCIS 
has rejected 40 deferred action requests. Since September 5, 
there have been no additional requests. So, we can look in, 
make sure that's true. That's what I understand.
    Historically, USCIS has been the only agency to grant 
deferred action to someone not in removal proceedings. Deferred 
action can be revoked at any time. And when determining 
deferred action, no specific criteria or application was used. 
Field officers used their discretion in the totality of the 
circumstances to make a decision. I want to know is that 
accurate.
    And when asked how the individuals who may have received 
deferred action came to the country initially, USCIS noted it 
does not track that data since there is no formal application 
for the process, and it's a mixed bag. I'd like to know. I'd 
like to track that, I'd like to understand it, and I'd like to 
know about it. And so now I think we'll learn from some of 
those things from the hearing today.
    So, in wrapping up, I want to reiterate what I said in our 
July hearing. If we want real reform, real change, then we need 
to be discussing the root of the problem. The problem, in my 
opinion, is that we refuse as a Congress to stand behind the 
rule of law and make clear that our immigration and border laws 
are enforced.
    I think we need clear rules of the road, and I think we 
need to follow them. I think that is better for our Nation. I 
think that is better for our sovereignty. I think that is 
better for the migrants who seek to come here. I think it is 
better for those who are sick, looking for care. I think it is 
better for a just and humane way of dealing with things.
    And I think that we should stop sending mixed signals. I 
think we should stop sending signals it's okay to come here 
illegally, to stay over visas, to empower illicit criminal 
organizations and cartels, and to--and basically have a system 
where we have indentured servitude in our country because we're 
allowing this broken system to continue.
    We just had 50,000 apprehensions at the southwest border in 
August. You see lots of news accounts saying how that's 
dropping down and how we should celebrate that. Well, it's 
still enormously high. It is still an enormously high number. 
We are still overwhelmed at the border, even as those decline 
in the heat of the summer.
    At the peak of the crisis there were 132,000 apprehensions 
at the border. And so as this proceeding continues today, we 
need to remember the underlying factors driving the crisis. We 
need to secure the border and do our job, and that all the 
pointing of fingers at the agencies and spewing of rhetoric 
here doesn't solve the problem but rather real reform will 
start here in Congress.
    I want to thank the agencies for appearing today. I'd like 
to thank all the witnesses for appearing today, and look 
forward to hearing from each one of you through the rest of the 
hearing.
    Thank you, Mr. Chairman.
    Mr. Raskin. All right. Mr. Roy, thank you very much. And I 
want to associate myself with your comments about 9/11, and I'm 
glad indeed that we were able to have a ceremony of all of the 
members of the House today observing this important 
remembrance.
    I now want to welcome our first panel of witnesses. It is 
my pleasure to have you here, and I thank you all for the great 
pains you've come to join us.
    The witnesses are Maria Isabel Bueso [Barrera]; Jonathan 
Sanchez; Shoba Wadhia, who is a clinical professor of law and 
the director of the Center for Immigrant Rights Clinic at Penn 
State Law School; Dr. Fiona Danaher, who is a pediatrician from 
Mass General Hospital Chelsea Pediatrics and Mass General 
Health Child Protection; Anthony Marino, the director of 
Immigration Legal Services at the Irish International Immigrant 
Center; and Mr. Thomas Homan, the former director of the U.S. 
Immigration and Customs Enforcement.
    Okay. For all the witnesses who are able, please rise and 
raise your right hands, and I will begin by swearing the whole 
panel in. And if you are not, please just raise your hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses all answered in the 
affirmative.
    Thank you very much. Please be seated.
    Please speak directly into the microphones. You have five 
minutes. And without objection, your written statements will be 
made part of the record so we will get a comprehensive look at 
what you have to say even if you don't get it all in within 
five minutes.
    With that, Ms. Bueso, you are now recognized to give an 
oral presentation of your testimony.

 STATEMENT OF MARIA ISABEL BUESO BARRERA, PATIENT WITH A RARE 
                            DISEASE

    Ms. Bueso Barrera. I would like to thank the members of the 
House Committee on Oversight and Reform for the opportunity to 
speak before you and share my story.
    My name is Maria Isabel Bueso Barrera. I'm 24 years old. I 
came to the U.S. from Guatemala when I was only seven to 
participate in a clinical trial to save my life and the lives 
of those like me.
    I came here legally and have been a legal resident in this 
country for over 16 years. But on August 13, the USCIS sent a 
letter giving me and my family just 33 days to leave the 
country. While we were grateful to learn that our case would be 
reopened, our future is still in question.
    This has been an overwhelming time for my family and me 
because the medical treatment I need is not available in 
Guatemala. I was born with MPS-VI, which affects less than 
2,000 people in the world. MPS-VI is a rare life-threatening 
disorder. My life expectancy was very short, and the doctor 
said I might not live into my teens.
    At the time of my diagnosis, there was no approved therapy 
to treat MPS-VI. Then in 2001, I met Dr. Harmatz at UCSF 
Benioff Children's Hospital in Oakland, who was conducting 
clinical trials with an enzyme replacement therapy. He 
desperately needed more patients willing to participate in this 
research. I was selected for the trial, and my family was 
invited to come to the USA on a B-2 visa so I could participate 
in the study.
    As a young child, it was not fun spending so much time in a 
hospital, but I also understood it was an honor and a 
privilege. As I matured, it was rewarding to know that what I 
was doing was going to help a lot of people. I have continued 
participating in clinical trials until this day to help the 
next generation with the treatment of my disease.
    The first study I participated in was successful and led to 
the FDA approval of the first and only treatment. Thanks to 
this study, other children with MPS-VI in the U.S. now have a 
safe and effective treatment that will help them live longer 
and have a higher quality of life.
    Doctors told me that if I stopped the treatment, my 
condition would decline quickly and I could die within months. 
So, after the FDA approval, my family relocated to California 
so I could continue receiving this lifesaving treatment.
    In addition to MPS-VI, I also suffer from paraplegia and I 
use a power wheelchair for mobility. I have a tracheotomy and I 
have a VP shunt in my brain, making my healthcare even more 
complicated. Still, the decision to relocate was hard. My 
parents left a middle-class life, their careers, family, and 
friends. My father is a computer systems engineer and found a 
sponsor for an H-1 visa so that he could provide for us.
    In 2009, we petitioned for a change in status, and we were 
granted deferred action for humanitarian reasons. We renewed 
this status every two years, but this year, due to change in 
policy, our request was denied.
    I want to live. I'm a human being with hopes and dreams in 
my life. Despite my physical challenges, I have worked hard to 
achieve my goals. I graduated Summa Cum Laude from Cal State 
East Bay and was director of the associated students for the 
Concord Campus. I established a scholarship to support students 
with physical and mental disabilities at CSUEB, and I now work 
as an advocate for people with rare diseases.
    This summer, I was an intern at California Assemblymember 
Rob Bonta's District in Oakland. With the incredible support of 
my family, I have stayed positive and maintained hope through 
many struggles. I'm grateful for the opportunity this country 
has given me to receive medical treatment and to live much 
longer than expected. And I'm grateful for the humane 
immigration policies that have made my life here possible, and 
with that life I want to make a difference for others.
    I am asking Congress and the administration to come 
together and to right the wrong of this change in policy. This 
is not a partisan issue; this is a humanitarian issue and our 
lives depend on it.
    Thank you so much.
    Mr. Raskin. Thank you very much, Ms. Bueso.
    Mr. Sanchez.

  STATEMENT OF JONATHAN SANCHEZ, CYSTIC FIBROSIS PATIENT AND 
               MEDICAL DEFERRED ACTION APPLICANT

    Mr. Sanchez. My name is Jonathan Eduardo Sanchez, and I'm a 
16-year-old boy that has cystic fibrosis, a disease that 
affects primarily the lungs. Also, it affects the digestive 
system and my pancreas.
    I want to tell you about my life back in my native country, 
that's Honduras, and how my life has changed since I came to 
the USA in 2016. I was born in Tegucigalpa, Honduras in 2003. I 
lived there for my first 12 years of my life.
    When I was three months old, my parents found that I had 
CF. It was a pretty scary day for them. It was frightening 
because three years before I was born, they had a daughter 
named Samantha. She was born with a problem in her intestines. 
Unfortunately, the doctors in Honduras didn't know how to treat 
her or how to help her.
    Six months and two days after she was born, my sister 
passed away. This was a pretty heartbroken moment for my 
parents. One month after, they noticed that she had cystic 
fibrosis. And right now, they're worried that if I go back to 
my country, it will happen the same thing to me.
    On the year 2016, we came to the USA legally with our 
tourist visas to search for a better cystic fibrosis treatment 
for me. When I go for the first time to Boston Children's 
Hospital in Massachusetts, they made me a pulmonary function 
test, and the results told me that I had only 40 to 42 percent 
on my pulmonary function test.
    The doctors of Boston Children's Hospital told my parents 
that I came to the USA literally dying. After the first visit, 
they sent me home with some of the CF medication that I should 
take and that I wasn't able to get in my country. The first 
time I start to get on the treatment, I got pretty tired 
because I wasn't used to it.
    The doctors, after they made me another pulmonary function 
test. This time it gave the answer of 60 to 69 percent on my 
pulmonary function test. Right now, my baseline is 90 through 
97. Sorry. Right now, I'm using a medication called Orkambi, 
that helps like the cystic fibrosis mutation lifts for a bit of 
time. But this medication is only in two countries: England and 
the United States of America.
    CF requires a daily home treatment that takes around half 
an hour or two hours if it is longer. This treatment is 
basically a percussion vest and nebulizers. I also take tons of 
medicines for my pancreas, my stomach, my lungs, and the other 
organs that are affected by cystic fibrosis.
    However, since we got the letter denying the medical 
deferred action application and telling us that we need to 
leave the country in 33 days or we'd be deported, my parents 
and I felt distressed, sad, scared, and mad. It is incredibly 
unfair to kick out kids who are in hospitals or at home getting 
treatment to save their lives.
    The day our lawyers told us that the medical deferred 
action program was canceled, I started crying and telling my 
mom, I don't want to die. I don't want to die. If I go back to 
Honduras, I will die. After this, I feel so tired, both 
emotionally and mentally. I could not even sleep properly.
    I feel disappointed with the USA Government that they 
canceled this program. Sorry for that. In my point of view, 
thinking that deporting sick kids like me, it will be a legal 
homicide because in our countries, doesn't exist any type of 
treatment.
    Thank you for your time.
    Mr. Raskin. Thank you, Mr. Sanchez.
    Dr. Wadhia.

  STATEMENT OF SHOBA SIVAPRASAD WADHIA, CLINICAL PROFESSOR OF 
LAW, DIRECTOR, CENTER FOR IMMIGRANTS' RIGHTS CLINIC, PENN STATE 
                           LAW SCHOOL

    Ms. Wadhia. Ranking Member Jordan, Chairman Raskin, Ranking 
Member Roy, and distinguished members of the committee, thank 
you for inviting me to appear before you today. I am a law 
professor at Penn State Law in University Park and testifying 
in my individual capacity.
    My scholarship, teaching, and practice focus on immigration 
law, a field I have worked in for 20 years. I have published 
two books with NYU Press. My first book, ``Beyond 
Deportation,'' binds nearly a decade of research on the history 
of prosecutorial discretion and deferred action in immigration 
cases. My second book, ``Banned,'' examines immigration 
enforcement and discretion during the first 18 months of the 
Trump administration.
    Deferred action enjoys a long history in both Democratic 
and Republican administrations. First called nonpriority 
status, deferred action operated informally for most of the 
20th century. In the early 1970's, as part of his effort to 
support his clients John Lennon and Yoko Ono, Attorney Leon 
Wildes reviewed over 1,800 deferred action cases, many 
involving medical infirmity and humanitarian factors.
    In 1975, INS issued guidance on deferred action through 
operations instructions. In 1996, the operations instructions 
were moved into a new publication known as standard operating 
procedures, or SOP. The 2012 SOP from USCIS describes how an 
individual, legal representative, or USCIS can request deferred 
action.
    Deferred action does not provide a formal legal status, but 
the legal foundation to use it is crystal clear. The 
immigration statute, Federal court decisions, and legal 
opinions by INS and DHS have recognized the legality of 
deferred action.
    Regulations published during the Reagan Administration 
explicitly identify deferred action as one basis for work 
authorization. USCIS has used deferred action in medical and 
humanitarian cases for decades. The idea is longstanding and, 
in fact, customary.
    In one dataset I received in 2011, nearly half of the cases 
I could identify involved serious medical conditions, and many 
of the cases involved more than one factor. For example, 
deferred action was granted to a 47-year-old schizophrenic who 
overstayed his visa, was the son of a lawful permanent 
resident, and had siblings who were U.S. citizens. Over 100 of 
these cases involved people whose homes were destroyed by an 
earthquake in Haiti.
    In another dataset of 578 cases obtained from USCIS in 
2013, 336 were based on medical issues. One case involved a 
Mexican female who entered the United States without inspection 
and had two U.S. citizen children. One of her children had Down 
syndrome, and the other child had serious medical conditions.
    I received a third dataset from USCIS in 2016, again 
revealing that many deferred action requests were based on 
serious medical conditions. The dataset included a child with 
burns on over 65 percent of their body and parents of USC 
children with cerebral palsy.
    USCIS has a long history and the expertise of handling 
cases for vulnerable populations and should continue to process 
humanitarian deferred action cases. Preserving an affirmative 
deferred action process at USCIS allows a person to request 
what is often a lifesaving protection without having to undergo 
removal proceedings and also saves the government resources.
    Further, nearly every legal opinion from INS and DHS on 
prosecutorial discretion instructs officers to exercise 
prosecutorial discretion at the earliest stage of the 
enforcement process. Stripping USCIS of jurisdiction over 
deferred action forces a noncitizen to instead exhaust the 
enforcement process. Who is served by placing a cancer patient 
who might ordinarily request deferred action at USCIS into the 
removal process? No one.
    Finally, USCIS should improve transparency by publishing 
statistics about deferred action and providing greater notice 
and information to the public.
    Thank you. I look forward to your questions.
    Mr. Raskin. Thank you, Dr. Wadhia. I'm afraid your time is 
up. We'll have further time for questions.
    Dr. Danaher.

   STATEMENT OF FIONA S. DANAHER, MD, MPH, PEDIATRICIAN, MGH 
      CHELSEA PEDIATRICS AND MGH CHILD PROTECTION PROGRAM

    Dr. Danaher. Ranking Member Jordan, Chairman Raskin, 
Ranking Member Roy, and distinguished members of the committee, 
thank you for the opportunity to testify before you today.
    I am Dr. Fiona Danaher, a pediatrician at Massachusetts 
General Hospital for Children, where much of my clinical work 
focuses on the care of children in immigrant families. I have 
come here today to express the profound concerns that I and my 
colleagues share over USCIS's potential termination of the 
medical deferred action program.
    Our hospital cares for children who have benefited from the 
program, including a young child with a rare genetic condition 
that causes seizures and developmental challenges. In the 
country of origin, this child's condition is stigmatizing and 
deemed unworthy of care.
    The family was told the child would suffer from intractable 
seizures and die within a year. Refusing to accept that nothing 
could be done, the family left everything behind to seek a 
second opinion at Mass General Hospital's specialized clinic 
devoted to this genetic condition, one of only a handful of 
such clinics in the world.
    Thanks to the family's determination and the care of a 
dedicated clinical team, this child has lived a longer and much 
richer life, attending school and achieving some mobility in 
social skills. None of this would have been possible without 
the medical deferred action program. Now the child's status is 
due for renewal at a time when the program may arbitrarily end, 
jeopardizing much hard-won progress.
    When pediatricians care for medically complex children, we 
often do so with bated breath. These children are by definition 
vulnerable. Whether they suffer from cancer, cystic fibrosis, 
muscular dystrophy, cerebral palsy, or one of number of other 
diseases, they require care from a multidisciplinary team of 
specialists.
    Depending upon their underlying condition, an error as a 
simple as a mis-dosed medication, a dislodged tracheostomy 
breathing tube, or a poorly covered sneeze could spell 
catastrophe. For many of these children, their health is so 
tenuous as to make travel unsafe, and their clinicians would 
hesitate to even transfer them to another hospital within the 
United States, never mind overseas.
    Should these children be forced to return to their home 
countries, their care may be impeded not only by stigma and 
misunderstanding, as in our patient's case, but by lack of 
basic resources. Access to safe food and water is not a given 
in many parts of the world and chronically ill children 
routinely die from malnutrition or infection as a result.
    Unreliable electrical grids threaten the health of children 
who depend upon intervention such as pumps, ventilators, or 
medications that spoil without consistent refrigeration. 
Particularly frail children can die from heat-related 
complications for want of access to air-conditioning.
    Severe air pollution in developing countries poses a dire 
hazard for children with underlying lung disease, and 
immunocompromised children are poorly equipped to handle 
exposure to endemic infectious diseases such as malaria, 
diarrhea, measles, and pneumonia.
    Healthcare systems in many low middle-income countries are 
still in their nascence. Simply transporting an acutely ill 
child to a hospital can pose an insurmountable challenge in 
areas without ambulances or safe roads. Supply chains are 
inconsistent, so should the child make it to the hospital, the 
medications and equipment he or she needs may still prove 
unobtainable, as may the skilled personnel needed to administer 
them.
    It is sadly not hyperbole to say that sending medically 
fragile children to such environments amounts to issuing them a 
death sentence. Adding insult to injury, such children could 
find themselves unable to access even the most rudimentary 
palliative care to ease the anxiety and physical pain of their 
passing.
    Perhaps no intervention is more crucial to minimize the 
suffering of a severely ill child than maintaining the presence 
of a loving family member at the bedside. Terminating the 
medical deferred action program would leave some medically 
complex U.S. citizen children struggling not only with the 
physical burden of their disease, but with the emotional trauma 
of forced separation from their immigrant parents. No child can 
be expected to heal under such circumstances. This is not just 
bad medicine; it is unconscionably inhumane.
    The U.S. Department of Health and Human Services building 
here in Washington, DC. bears an engraved quote from its 
namesake, Hubert H. Humphrey. It reads: The moral test of 
government is how it treats those who are in the dawn of life, 
the children; those who are in the twilight of life, the aged; 
and those in the shadows of life, the sick, the needy, and the 
handicapped.
    My colleagues at Mass General and I respectfully urge USCIS 
to embrace the moral imperative of permitting our young 
patients the opportunity to heal and to thrive.
    Thank you.
    Mr. Raskin. Thank you, Dr. Danaher.
    Mr. Marino.

   STATEMENT OF ANTHONY MARINO, DIRECTOR, IMMIGRATION LEGAL 
         SERVICES, IRISH INTERNATIONAL IMMIGRANT CENTER

    Mr. Marino. Chairman Raskin, Ranking Member Roy, Ranking 
Member Jordan, distinguished members of the committee, thank 
you for inviting me here today and for hearing these stories.
    I'm here today in my capacity as the director of legal 
services at the Irish International Immigrant Center where we 
provide legal wellness and education services to immigrants 
from Ireland and 120 countries around the world. In our legal 
program, we have represented dozens of families facing the 
horrific circumstances that always accompany an application for 
deferred action.
    In the majority of deferred action cases I've seen, an 
individual entered temporarily and then fell ill, was gravely 
injured, or received a terrifying diagnosis. Sometimes the 
illness or injury makes travel impossible. Sometimes lifesaving 
treatment is just not available in a home country. In the vast 
majority of cases we handle, it's a child whose life is at 
stake.
    We represent children with cerebral palsy, muscular 
dystrophy, a child blinded by the cancer in her eyes, a child 
who is suffering multiple seizures every day. We represent 
children confined to wheelchairs, connected to feeding tubes 
and tracheostomy tubes. And in each of these cases, there is a 
family with no desire to break any law but who simply cannot 
leave without putting a life in danger.
    And in these kinds of dire circumstances, the government 
has always provided a relief valve, a process by which a family 
could come forward rather than cowering in the shadows over a 
sick child and lay out their circumstances, explain to USCIS 
why travel had become impossible, even deadly, and that the 
government would agree to allow them to continue their child's 
care.
    I know that lives have been saved by this program. I've 
sadly also known children we've represented to die in this 
program. But even in those cases, the brief reprieve by the 
government bought those families precious time. This 
longstanding legal program is what protects people from 
government actions that would shock the conscience and betray 
our fundamental values as a Nation.
    I was shocked then three weeks ago when I received the 
first denial notice, and over the course of the next two weeks, 
about a dozen more. They all contained the same boilerplate 
language: USCIS field offices no longer consider these 
applications at all. Leave in 33 days or we may initiate your 
removal.
    The decision to terminate the program was done in secret. 
There was no prior notice, no opportunity to advocate for the 
program, and no opportunity to prepare my clients for those 
denial letters. We immediately reached out to all the families 
who were applying or were in the program already, and I've had 
some of the most difficult conversations of my life over the 
past few weeks.
    Clients have asked me what the government expects them to 
do, to disconnect a child from lifesaving support, to put them 
on a flight that they may not survive. They've asked me what I 
would do. And we file many applications for parents whose U.S. 
citizen children suffer these life-threatening diseases, and in 
these cases, the termination of the program threatens yet more 
family separation. There are parents right now having 
conversations about whether to orphan a child in order to 
extend his or her life.
    When the terrible reality of what they had done became 
public, USCIS's initial response to the media was to deny that 
they eliminated the program. They claimed they had simply 
transferred it to ICE, and, of course, our clients wanted to 
know what that meant and how much danger their families were 
in. Media outlets were contacting our center trying to get us 
to explain it to them, and I had to tell them that the only 
information I had I was getting from them.
    But the transfer to ICE appears to have just been false. 
There's no new procedure. There's no new program. And ICE 
officials have since confirmed, again through the media, that 
they have no program in place and no plan to implement one.
    After USCIS's latest press alert last week, we began 
receiving notices that some cases would be reconsidered. We 
still don't know what that might mean for those families. The 
press alert references Department of State regulations, and 
it's unclear if this means they're applying the same standard 
they always have or if they've made up some new standard that 
we don't know.
    And the press alert and these reconsideration notices we've 
received still indicate that the program has been terminated 
moving forward. It leaves no option for families in these dire 
circumstances now or in the future. Because the program was 
terminated in secret, people didn't know. They kept filing. We 
filed applications as recently as August 16, and we have no 
idea what it means for that case.
    Deferred action is a critical, literally lifesaving program 
that impacts a small number of families but in an absolutely 
immeasurable way. And ultimately, USCIS hasn't backtracked so 
much as doubled down. They've delayed the consequences of their 
decision for a handful of families, but that's it. And unless 
Congress or the courts can either convince or compel USCIS to 
reinstate the program, everyone in it and everyone that would 
otherwise benefit from it is in a horribly worse position 
today.
    Mr. Raskin. Mr. Marino, thank you very much for your 
testimony.
    Mr. Homan.

 STATEMENT OF THOMAS HOMAN, FORMER DIRECTOR, U.S. IMMIGRATION 
                    AND CUSTOMS ENFORCEMENT

    Mr. Homan. Chairman Raskin, Ranking Member Roy, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear here before you today on this very 
important subject which is the appropriate exercise of 
prosecutorial discretion.
    My name is Tom Homan. I'm a veteran of the Nation's 
immigration service. I retired in 2018 after having served more 
than 34 years enforcing immigration law. As you know, I'm 
passionate about this issue, and I'm glad to be back to testify 
in a different aspect of it today.
    But before I delve into the details pertaining to the 
subject of today's hearing, I would also like to pause to 
reflect on this being the 18th anniversary of the cowardly 9/11 
terrorist attacks on our homeland. May God have mercy on those 
innocent victims who lost their lives and their families, and 
may we continue to protect this country against those that want 
to destroy us and the freedom we enjoy in this country.
    I also want to salute and honor the fallen soldiers that 
took to fight to those who attacked us and made the ultimate 
sacrifice. I, for one, will never forget.
    Regarding today's hearing, I would like to start by 
clearing up what appears to be a common misunderstanding: It is 
not lawful to have a deferred action program at any Federal 
agency. The word ``program'' conjures the idea that an entire 
class of aliens, if they meet certain criteria, are entitled to 
a benefit, in this case deferred action. That is simply not the 
case.
    When you break it down to the most basic underpinnings of 
the law, deferred action is the exercise of prosecutorial 
discretion. And prosecutorial discretion, whether it's a stay 
of removal, deferred action, administrative closure, may only 
be exercised, one, on a case-by-case basis and not for a class, 
according to a set of criteria; and two, by law enforcement 
agencies.
    Again, prosecutorial discretion is rightfully only 
exercisable on a case-by-case basis, and even then, only by the 
relevant prosecuting agency, a law enforcement agency that has 
a statutory authority over those laws.
    And I'm here to answer those questions about that program 
today. It's an important hearing, and these are important 
questions that we'll be talking about today.
    But I want to change the course here for one minute. I 
understand this hearing is very important. That's why I 
accepted the offer to come here today and discuss it with the 
Members of Congress and the American people. Any policy that 
affects lives is important. One death that could have been 
prevented is too many.
    But I must voice the concern that I have about these types 
of hearings. I have noticed that the House is quick to schedule 
hearings whenever there's a policy change or an operational 
change that some think--and usually they're wrong--that this 
change may negatively impact someone that knowingly violated 
our laws and may be in the country illegally.
    I don't see the same sense of urgency when existing 
policies put our citizens in danger, puts this country's 
security in danger, or result in an unsecure border, which 
results in not just a humanitarian crisis, but a national 
security crisis.
    While we continue to have hearings which contain inaccurate 
titles, misleading titles that only serve to push a false 
narrative about the actions of this administration and vilify 
the brave men and women that serve within this administration, 
you are choosing to ignore a bigger problem that affects many, 
many, many more lives, many more than this recent policy 
change.
    If you want to effect meaningful change that will save 
countless lives, you need to refocus and add to this hearing 
today. For instance, where are the hearings to discuss the 
crisis on the border and the three loopholes that are causing 
much of the crisis? Where are the hearings on existing 
loopholes around the asylum laws that are being abused, the 
TVPRA that is causing many children to be put in the hands of 
criminal organizations and put in great danger? Where are the 
hearings concerning the Flores settlement agreement that has 
resulted in unprecedented flow of family units that resulted in 
countless child trafficking victims, 32 percent of women being 
sexually abused and children dying?
    Criminal cartels are making millions of dollars a year 
because of congressional inaction, but I see no hearings on 
this. These same cartels that have murdered Border Patrol 
agents, where are all those hearings?
    This humanitarian crisis has caused a national security 
crisis because half the Border Patrol is no longer on the 
frontline. Where's that hearing?
    You want to conjure up a false narrative about sending 
dying children home, but you won't address sanctuary policies 
that provide sanctuaries to criminals and put our communities 
at risk. Many children and others have been raped and murdered 
by criminal illegal aliens after being released from a 
sanctuary jail, but I don't see a hearing on that.
    Thousands of Angel Moms and Angel Dads have been born out 
of sanctuary policies, but I don't see the urgency that we have 
on things that we want to attack the administration on. I don't 
see a hearing on that.
    Our Nation's heroes in ICE and Border Patrol are under 
attack. Their families are being attacked and bullied in 
public, in churches, and at schools. Even companies that work 
with us are under attack, and their lives are being threatened. 
Where's the hearing on that? I am hearing nothing but dead 
silence on this issue.
    What I do hear are Members of Congress joining in on the 
hate. It's truly unbelievable.
    I ask that you step back and take a breath. Attack this 
administration a little bit less and actually address the 
underlying problems that cause all these problems. Do your job 
and fix the loopholes. Make hearings meaningful and actually 
take some legislative action after the hearing rather than 
staging more political fear.
    No Member of Congress should be against securing our 
border. There's no downside of that. There's no downside on 
less illegal immigration. There's no downside on less illegal 
drugs. There's no downside on taking money out of cartels' 
hands that are murdering our agents.
    Today's hearing is important. I want to make that straight. 
This is a very important hearing. We need to discuss it. I'm 
glad to be here, but we need to talk about these other issues 
down the road.
    Mr. Raskin. Thank you, Mr. Homan, for your testimony.
    We will now begin the period of questioning from the 
members, and I will recognize myself for five minutes for 
questions.
    On September 2, after the subcommittee demanded USCIS and 
ICE appear at this hearing, the administration announced a 
partial reversal of the new policy. In particular, USCIS Stated 
that it would, quote, "reopen requests for deferred action" 
that were, quote, "pending on August 7, 2019."
    Ms. Bueso, you and your family were told by USCIS in a 
letter dated August 13, 2019, that you need to leave the 
country by September 14, which is this coming Saturday.
    I'd like to put the letter up on the screen, if we could.
    And in the meantime, quickly, let me just ask you a 
question, Ms. Bueso. You were recruited to participate in 
several clinical trials. Is that right?
    Ms. Bueso Barrera. That's correct.
    Mr. Raskin. So, you were here both for your own treatment 
but also to participate in these trials that could help 
everyone suffering?
    Ms. Bueso Barrera. Yes. Help many, many, many, many 
clinical trials that could help other people.
    Mr. Raskin. Okay. Very good.
    Now, if we look up on the screen, USCIS says: If you fail 
to depart the United States within 33 days of the date of this 
letter, USCIS may issue you a notice to appear and commence 
removal proceedings against you with the immigration court.
    Was your request submitted before August 7, 2019?
    Ms. Bueso Barrera. We sent our package in May.
    Mr. Raskin. I'm sorry?
    Ms. Bueso Barrera. In May.
    Mr. Raskin. In May. In the month of May, okay.
    Ms. Bueso Barrera. In May.
    Mr. Raskin. Have you received anything from USCIS about 
your case since this letter came on August 13?
    Ms. Bueso Barrera. No. We received that letter on August 
13, and then we got another letter from the USCIS that they 
were going to reopen it, but it's still uncertain the 
situation.
    Mr. Raskin. Okay. So, you got a letter saying it's been 
reopened.
    Ms. Bueso Barrera. But it's uncertain. It's not clear.
    Mr. Raskin. But we don't know what that means?
    Ms. Bueso Barrera. Yes. We don't know what that means. And 
I have people here, my lawyer, Martin, he can answer your 
question too.
    Mr. Raskin. Okay. USCIS, as I understand it, has not 
explained to anyone what the practical implications are of this 
partial reversal in the wake of public protest about what had 
happened, including whether any request submitted prior to 
August 7 would eventually be approved.
    Mr. Marino, in light of this putative reversal, what 
concerns do you have for people who requested deferred action 
before August 7?
    Mr. Marino. Yes. I wouldn't call it a reversal, because the 
press alert that USCIS issued still indicates that they've 
terminated the program. They just said they're going to finish 
the cases that were pending on August 7. So, I have clients 
with sick children now who need access to this program and 
aren't able to file.
    Mr. Raskin. Okay. Mr. Homan had advised against using the 
idea of a program, saying this is just selective case-by-case 
granting of the deferral. What's your response to that?
    Mr. Marino. Yes, I don't see the distinction. There are 
lots of programs that have individual discretionary decisions 
made in them. There's a standard operating procedure for it. If 
he doesn't like the word ``program,'' that's fine, but----
    Mr. Raskin. Do you feel confident that requests like Ms. 
Bueso's will get a full and fair review from USCIS?
    Mr. Marino. I certainly hope so. I'm remaining confident. 
I've told my clients I hope that those that they will consider 
will get the same consideration that they've always gotten in 
the past. But this language in the press alert about some State 
Department regulation, we're not sure what that means, so----
    Mr. Raskin. There's even more uncertainty about the future 
of critically ill kids whose families submitted requests after 
August 7.
    Mr. Marino. Right.
    Mr. Raskin. What's going to happen to immigrants and 
families who fell on the wrong side of this August 7 deadline?
    Mr. Marino. I have no idea. We filed at least one case 
after that, and we've received nothing. So, we didn't receive a 
denial. We haven't received anything about new procedures being 
in place. We just don't know.
    Mr. Raskin. And these are people who are in relatively 
similar circumstances in terms of critical medical situations?
    Mr. Marino. Yes. I have about 19 families that we 
represent, and they're all critical medical conditions.
    Mr. Raskin. How would you describe their mental condition 
given the legal uncertainty?
    Mr. Marino. It's been absolute chaos. People are terrified. 
We've had more conversations in my office with crying clients 
than ever in history, and that's a big thing to say in an 
immigration legal services office. It's been devastating. 
People are terrified. It's their children's lives.
    Mr. Raskin. Dr. Danaher, let me come to you. What is the 
attitude of doctors, nurses, medical personnel, given the 
current context about what's happened?
    Dr. Danaher. Frankly, we're rather appalled. These patients 
are incredibly sick, and they need care, and we'd like to 
provide it for them.
    Mr. Raskin. Okay. And my time has expired, and I am happy 
to recognize Mr. Hice for his five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    We are a compassionate country, and that goes for both 
sides of the aisle and the vast majority of people in this 
country. And it's an honor and a privilege to be able to help 
those in need, and I welcome and thank everyone on the panel 
for being here today.
    But there are issues that are before us today that are 
broader than what is on the surface. We have organizations, for 
example, like USCIS and ICE, who are now being forced to make 
decisions they should not be forced to make because this 
Congress refuses to pass and deal with serious immigration 
reform and implement it.
    This committee continues the same type of political 
posturing and attacks toward this administration regarding the 
border crisis, while at the same time doing absolutely nothing 
to address the problem and to offer authentic solutions.
    If the Democrats genuinely cared about the plight of 
migrants, of unaccompanied children, of sick immigrants and so 
forth, then let's come to the table and let's try to get 
solutions instead of the continued political posturing.
    Let me just review a few things in the recent months that--
unproductive activity. In June, a member from this committee 
from the other side of the aisle remarked that the United 
States is running concentration camps on our southern border, 
vilifying the men and women of ICE, our Border Patrol agents, 
who are putting their lives on the line every day to defend us 
and protect this country. Then a group of my colleagues on the 
other side of the aisle issued a press release criticizing the 
emergency border supplemental bill that provided increased 
funding that would have helped. Then a dozen of my Democratic 
Members visited Clint, Texas, the CBP facility there, later 
alleging the unsanitary conditions there and that individuals 
were being forced to drink out of toilets.
    Look, we can address problems if we're willing to get to 
the root of the issues and address them. We have the authority 
here to do so. But there are things staring us right at the 
face that we're totally ignoring, like amending our broken 
asylum process, reviewing the Flores settlement agreement, 
increased funding for border security.
    Listen, I've been at the border. I think I've been to six 
out of the nine sectors. I've not seen any of the things that 
have come from my colleagues on the other side of the aisle. 
I've seen great, hardworking members of our CBP and others 
giving all they've got to do a job well.
    And, look, we've got to address solutions, and the 
solutions are not open border policy. The solutions are not to 
decriminalize border crossings.
    Mr. Homan, let me just ask you--and thank you and all again 
for joining us--why would having an open border policy pose a 
security risk?
    Mr. Homan. Well, for example, right now, Border Patrol has 
about 50 percent of their staff off the line. So, if you're 
someone in this world that wants to do harm to this country, 
you're not going to buy a plane ticket because there's too many 
background checks done. You can't get a visa because of the 
visa security program. You're going to enter this country the 
way 12 million to 20 million others entered, especially now 
when half the border is unsecure.
    Mr. Hice. In essence, is decriminalizing border crossing, 
is that kind of in itself really an open border policy?
    Mr. Homan. Yes, it's another enticement, like sanctuary 
cities, like giving free college education or free medical care 
or rewarding illegal behavior by giving people citizenship. 
It's another enticement that these people put themselves in 
harm's way to come here to the country and put themselves in 
the hands of criminal organizations.
    Mr. Hice. What does it do to the morale of those who are on 
the border, those who are agents trying to do their job, when, 
be it members of the press or Members of Congress, push false 
narratives as to what's going on down there? What does that do 
to the morale?
    Mr. Homan. Well, it hurts their morale, not only the morale 
of the men and women that carry the badge and gun, it hurts the 
morale of their families. The spouses say good-bye to their 
spouse every day, leave the safety and security of their home 
to defend this Nation. And their families, their kids are being 
attacked.
    When I was ICE director, my kid was attacked. He had death 
threats against him. It's out of control. So, the men and women 
of ICE and Border Patrol deserve our thanks, not the ridicule 
by Members of Congress or the media.
    And this open border policy doesn't solve anything. It's 
going to create more people coming into this country illegally, 
more women will be raped, more children will die, and I've said 
that for two years----
    Mr. Raskin. Thank you, Mr. Hice. Your time is expired. I 
want to thank the witness.
    And I call on Representative Eleanor Holmes Norton next for 
her five minutes for questioning.
    Delegate Norton, you're up next. You're up now.
    Ms. Norton. Thank you very much.
    This is a very important hearing, because without you, we 
really would have no notion of what is at stake here. The 
newspapers, the news reports didn't give us the fine detail, 
the fabric that you have given us.
    Ms. Bueso, you and your family were granted--you know, it's 
amazing that anybody would want to take this away. I didn't 
even know we had this. I'm so pleased that we had this kind of 
deferred--we had something of this importance that we didn't 
even know about, and I'm sorry we didn't know about it, and 
then it being taken away is mind-boggling to me.
    I'm interested in this matter called MPS-VI. I'd like to 
know what the symptoms are, how rare it is. Ms. Bueso, could 
you enlighten us on that?
    Ms. Bueso Barrera. Yes, sure. So, I'll give the short 
version. So, MPS-VI is a rare genetic disorder. I was born 
without an enzyme in my body. And, you know, I was born like a 
regular baby. Until by the third week had developed problems 
getting sick a lot, infection, ER.
    But mostly, since my body didn't have the enzyme, the only 
treatment that my parents, you know, found is in California. 
And with that, you know, treatment, I take every single week, 
so once a week for six hours. And I've been doing this for the 
past 16 years.
    And with that treatment, it had helped me to live longer, 
because before, I was told that I'm not going to live, you 
know, till my teens, as I mentioned before. And I'm really 
grateful. But also, it caused a lot of problems with my heart, 
my lungs, my bone, spine, eyes, teeth. It's a whole, whole 
list. But I'm really grateful for the treatment that my parents 
found because it helped me live longer and not become so 
severe. But it's really rare, MPS-VI. Not many people know 
about it.
    Ms. Norton. Thank you. It's important for us to understand 
this condition.
    I do want to indicate there's a quid pro quo here. 
Obviously, those on deferred action are getting treatment they 
wouldn't otherwise get. And look what we're getting. Because of 
the diversity of our country, we're getting what we couldn't 
get otherwise, and that is, of course, the experience that can 
help many more perhaps from the United States.
    I want to know the importance of having family. We couldn't 
possibly, could we, Ms. Bueso, ask such people to continue this 
trial without family? How important is it to have somebody 
beside you? Suppose somebody said, okay, let that patient--let 
that person remain. What would it mean if there was nobody with 
you but you were by yourself?
    Ms. Bueso Barrera. No. I'm really grateful for my family, 
you know, to come here for my treatment. And also, it's really 
an honor to continue doing so many clinical trials, because now 
the medicine that I'm getting for MPS are giving it to babies, 
which does mean that they are gonna, you know, have less 
problems, you know, because they started early, and more 
energy. And I'm truly, truly blessed and important to continue 
with clinical trials so the doctors can know more about MPS-VI 
because it is a really rare condition. But I'm really blessed 
with my family.
    Ms. Norton. Yes, it seems to me that without the families 
present, this wouldn't even be possible for these citizens to 
remain and get help for themselves and help us with others.
    Mr. Marino, does deferred action help citizens and legal 
residents? If so or not, would you let us know how?
    Mr. Marino. Absolutely. Half of the children in the 
families that we represent who have these illnesses are U.S. 
citizens. And the deferred action requests are filed by their 
parents so that the parents are able to stay here and are able 
to work, to care for the child, to contribute to the cost of 
their medical care, to pay the rent. So, especially with 
families and children, there are U.S. citizens that are heavily 
impacted by this. And if they were to be forced to leave in 33 
days, the result would be that they would have to choose 
between orphaning the child, leaving the child behind to 
continue to get the treatment, or taking the risk of putting 
them on a flight or pulling them off of the treatment.
    Mr. Raskin. Thank you. The gentlelady's time has expired.
    I recognize Mr. Keller for five minutes.
    Mr. Keller. Thank you, Mr. Chairman. And I want to thank 
the members of the panel for being here today. Truly an 
important issue.
    The healthcare in America is the greatest in the world, and 
having been the--I'm parent of a son who received lifesaving 
treatment when he was three, and you will do anything to help 
your child. And, again, I just want to say that to the families 
and the people that are being treated.
    The question is for the panelists, Dr. Wadhia and Mr. 
Marino, you've been dealing with deferred action. I guess, 
Doctor, I'll talk to you first. You had mentioned in your 
testimony about the 1970's and the 1980's and much guidance and 
things with deferred action. I think it would be best if we as 
Congress would lay this out in the law so that it could not 
change. Have you ever contacted a Member of Congress with 
solutions or ideas that we could put in legislation that would 
help define this, since there hasn't been clarity, according to 
some of the----
    Dr. Danaher. So, I haven't had a specific conversation 
about codifying deferred action into legislation, but what I 
can say is that greater transparency and identification of the 
factors that will be considered being available to the public 
is something I greatly value.
    I would also say that we could have legislation. We need 
reform, as the representative said earlier. Even with a 
comprehensive reform, we will always need discretion. And so to 
the extent that the role that discretion and deferred action in 
particular played--action in particular plays in protecting 
people in humanitarian cases, we will always need that. So, I 
see all of these cases as sort of Hail Mary cases, if you will, 
and it enjoys a very long history.
    Mr. Keller. It does, but in order to make sure that 
everybody understands the clarity of it, you know, I think that 
would be--you know, it will go a long way as part of the reform 
that we look at when we look at immigration reform.
    Mr. Marino, you had talked about people being in your 
office and looking for clarity. Did you reach out to any of the 
Federal agencies and ask them for clarity, and did they respond 
to you on clarity?
    Mr. Marino. So, USCIS doesn't really communicate with us 
anymore. There's an 800 number that we can call. They have a 
private contracted customer serviceperson will call you back. 
But on issues like this, those lines of communications have 
really been slow.
    Mr. Keller. Did you call and ask them for guidance?
    Mr. Marino. So, the 800 number, no.
    Mr. Keller. Them at all, I mean any of the agencies?
    Mr. Marino. So, through the professional association, the 
American Immigration Lawyers Association that I'm a member of, 
they have liaisons contacted within USCIS, and there were 
contacts there to try and figure out what was going on. And my 
understanding is the response we got was just that, yes, this 
program's been eliminated. There wasn't any----
    Mr. Keller. Again, as people--you know, Doctor, as readying 
for it, and Mr. Marino, I would suggest that, you know--and 
I'll make the offer, because I think, Dr. Wadhia, I think 
you're a constituent of mine if you live in State College, to 
work with you on solutions. But here again, we're talking about 
people that have situations, but we're also talking about the 
bigger issue of making sure it's clear on all points of our 
immigration. So, I guess I would say that.
    Mr. Homan, if I could just pivot to you. Can you talk 
about, you know, why it might be best to let USCIS determine 
whether or not to grant deferred action? You know, should it be 
appropriate for USCIS for that or should it be ICE? I mean, 
where should we have this program? Who should be determining 
this?
    Mr. Homan. I don't think CIS should have this authority, 
because I think the authority lies with the agency that has 
statutory authority over decisions. ICE makes the arrest, ICE 
detains, and ICE removes. So, if someone's going to going to 
ask for the deferred action on immigration action, it shouldn't 
be a nonlaw enforcement agency exercising prosecutory 
discretion. It should be ICE on a case-by-case basis making 
that determination.
    Mr. Keller. Okay. I appreciate that. I guess I'm just going 
to--I only have a couple of seconds here, but, you know, just 
saying, we as the United States have a lot of things that we 
need to make sure people understand. And by the ambiguity of 
our immigration laws we've created a lot of confusion. And, you 
know, I guess I would say to the chairman and other people, you 
know, if we didn't have clarity from these agencies and there's 
people that are confused, I would hope that we did, that we as 
the committee, the chair of the committee would have asked for 
that guidance too so that we can put it out to the people. And 
I don't know if any of you have asked the committee for 
guidance to see how to be either.
    Mr. Raskin. The gentleman's time has expired. But I want to 
thank Mr. Keller, a new member of our committee, for a truly 
excellent line of questions there. And I would be delighted to 
work with you further on exploring whether there's a role for 
legislative remedy and formalization of some of the criterion 
standards that seem to be just kind of floating in the ether in 
the various departments.
    I will at this point call for five minutes on 
Representative Debbie Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Before I ask my questions, since it has not yet been done, 
I think it's important to really make sure that the jingoistic 
bigoted testimony of Mr. Homan is called out as nearly 
completely untrue, as being an outrage. And as a former 
official directing the Immigration and Customs Enforcement 
agency he should know better.
    Mr. Roy. Mr. Chairman----
    Ms. Wasserman Schultz. So, making sure that I am--no, this 
is my five minutes.
    Mr. Homan. What did I say was inaccurate?
    Ms. Wasserman Schultz. I am asking the questions.
    Mr. Raskin. Okay. The gentlelady is recognized for five 
minutes. She's made her point, and I will try to resolve any of 
the issues at the end of her questioning.
    Ms. Wasserman Schultz. Thank you.
    So, I just think it's important that it's not accepted as 
accurate testimony.
    That having been said, Ms. Bueso and Mr. Sanchez, I want to 
start by thanking you for your courage and for sharing your 
stories today. Both of you have publicly stated that this 
policy change constitutes a death sentence for you. Please know 
that my Democratic colleagues and perhaps some of our 
colleagues on the other side of the aisle will do all we can to 
reverse what is a disgusting decision by the Trump 
administration.
    Mr. Sanchez, in your testimony, you spoke of your parents. 
I'm a mother. I have a cousin with cystic fibrosis. Many in 
this room are parents, and there are a few anguishes greater 
than your child being sick, much less being one who is unable 
to access lifesaving care. Your parents did exactly what any 
parent would do. They found a way against impossible odds to 
make sure you were safe and to keep you alive. Our country 
should be proud to have doctors and treatments that can help 
kids like you. Every parent here should see themselves in your 
parents' whose love and tenacity brought you here. We should 
celebrate your story as a model of the goodness our country can 
offer.
    But instead, you're here unfortunately today to testify 
about why you deserve to live. For that, our country should be 
ashamed and I am so sorry.
    Ms. Bueso, I understand you came to the U.S., I heard your 
testimony, when you were seven years old to participate in a 
clinical trial for the drug that you now take to survive. Can 
you tell me a little bit about--tell us a little bit about your 
treatment and what you think would happen if you were not able 
to continue that treatment?
    Ms. Bueso Barrera. So, I've been taking this weekly 
treatment every Friday, once a week. And it's through an IV, 
and I go to the hospital. It's six hours long. And it has 
helped me live longer, because as I mentioned, I was broken 
down in enzymes. So, if I stop taking the treatment, which I've 
been doing for 16 years, but if I stop getting the treatment 
that my body needs because it's missing, then I'm going to die.
    Ms. Wasserman Schultz. Your doctor wrote a letter to U.S. 
Citizenship and Immigration Services in April of this year 
supporting your application for deferred action. And I would 
like to ask that that letter be put up on the screen.
    He wrote, and I quote, "It is imperative that Maria Isabel 
continues to receive this treatment for her life threatening 
disease." He continued, quote, "If she were to return to 
Guatemala, she would no longer have access to the medication 
and she would die."
    This must be really difficult to--for you to think about. 
Having survived a life-threatening illness myself, I know that 
fear. What scares you the most about the idea of returning to 
Guatemala?
    Ms. Bueso Barrera. Well, first of all, the treatment, 
because I need the treatment. And then also my medical care 
that I need that has been, you know, with being in California 
for so long. So, it's really terrifying to think about it, you 
know. But I've been praying a lot, so I'm hoping that the best 
way can come true, because it's very overwhelming and 
devastating just thinking about you're going to die when you 
have still so many dreams and hopes for your life. It's really 
devastating.
    Ms. Wasserman Schultz. I really can't imagine, but I can 
imagine as a parent the fear that I would have for my own 
children if, God forbid, that was the case.
    Mr. Sanchez, can you tell me about the--I'm somewhat 
familiar with the procedures that cystic fibrosis kids have to 
go through. Can you tell us a little bit about the treatments 
that you currently receive for your CF, and would you be able 
to get those same treatments in Honduras?
    Mr. Sanchez. No, I won't be able to get them in Honduras, 
because there's no machines, no supplementaries for the 
treatments. There isn't anything in Honduras for CF. They don't 
even know--the doctors don't know what CF is.
    Ms. Wasserman Schultz. As my time's expiring, if Dr. 
Danaher could elaborate on the risks that medically fragile 
children face if they were forced to turn--if they were forced 
to return to their home countries, and then I'll yield back.
    Dr. Danaher. I mean, it's different for every child, but 
their care is so complex that it's hard to imagine that any of 
the children in this program could receive the full treatment 
that they need should they leave the country. That's why they 
were granted the status in the first place.
    Mr. Raskin. Thank you very much. The gentlelady's time has 
expired.
    And I recognize Mr. Jordan for questioning for five 
minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Marino, the letters that were sent to the 424 families, 
none of them have been officially told that they would not be 
allowed to stay in the United States. Is that accurate? They're 
just--those individuals and those families are being--they're 
in the reevaluation, reopening of the case, but there's been no 
definitive decision made on those families. Is that accurate?
    Mr. Marino. Since the September--you mean the new letter 
since September 2?
    Mr. Jordan. Right.
    Mr. Marino. That's correct. They're just reconsidered. So, 
they're back open and we're waiting for a decision. That's 
right.
    Mr. Jordan. And we assume--we hope and assume that those 
individuals are going to be--they're here now. They're in some 
kind of--as some of our witnesses are already, they're in some 
kind of clinical trial, some kind of treatment program that 
they're going to be allowed to stay.
    Mr. Marino. I sure hope so.
    Mr. Jordan. Yes, so do I. I think we all do. And I think 
that's what the--I think that's the most logical and likely 
outcome and probably what will happen.
    So, how long have you been in your business working with 
these families? I think you said you had 19 families you're 
working with right now who have a pending application?
    Mr. Marino. Yes. So, I've been----
    Mr. Jordan. Nineteen families outside this 424 and any 
families you may have are in that category. Is that right?
    Mr. Marino. So, the 19 families I have, there are some 
families that--about half the families that had a pending 
application, another--and the other half are split between 
people who are preparing to file initially.
    Mr. Jordan. Okay.
    Mr. Marino. And people who are in the deferred action 
program now.
    Mr. Jordan. So, you got some within the 424----
    Mr. Marino. Right.
    Mr. Jordan [continuing]. And some without.
    Mr. Marino. Right.
    Mr. Jordan. Okay. And you've been doing this for a number 
of years?
    Mr. Marino. Yes.
    Mr. Jordan. How many years?
    Mr. Marino. I have been at the IIC for five years. I've 
been an immigration lawyer nine years. I don't know the first 
time I filed one, but----
    Mr. Jordan. You ever had anyone denied?
    Mr. Marino. I have not, but I know that they have been. I 
think that the reason that I've not is we in legal services 
kind of have a well-earned reputation of cherry picking cases.
    Mr. Jordan. But people in----
    Mr. Marino. We file them in very serious----
    Mr. Jordan. But some people get denied?
    Mr. Marino. Yes, absolutely.
    Mr. Jordan. Not just in the Trump administration. Some 
people got denied in the Obama Administration, probably some 
people got denied in the Bush Administration. Right?
    Mr. Marino. Yes. I've never had a categorical denial where 
they're all denied because we're no longer considering these 
cases anymore. I have seen----
    Mr. Jordan. But we haven't had that either. We just got a 
reopening/reexamination, and we all anticipate, based on the 
information we've got from USCIS, that they're going to be able 
to stay. All I'm asking is, in the past, people similarly 
situation--similarly situated have been denied?
    Mr. Marion. On a case-by-case basis, not categorically.
    Mr. Jordan. Right. I understand. I understand. Okay. I just 
want to make that clear. This is like, whoa, this is--you know, 
we're hearing from the other side, this is unbelievable. But 
there have been people similarly situated who have been denied 
in the past?
    Mr. Marino. I wouldn't say similarly situated. I don't 
think that any of the clients that I have now and the situation 
that they're in with the need for critical lifesaving medical 
treatment would have been denied in the past.
    Mr. Jordan. Okay. And I don't think they're going to be 
denied now. I think they got a notice and that there's going to 
be a reopening of the cases, I don't think they're going to be 
denied. And I certainly hope they're not denied. I think all of 
us are in that category. And based on the communication we've 
seen, that seems to be where this is headed.
    Mr. Marino. But that's just for those cases that were 
pending on August 7. The program has still been eliminated 
going forward, it seems. And they've apparently----
    Mr. Jordan. They're going to be--they're going to be looked 
at on a case-by-case basis.
    Mr. Marino. Just the ones that were pending on August 7.
    Mr. Jordan. Right. I got that.
    Mr. Marino. But the program's still been eliminated; that's 
our concern.
    Mr. Jordan. Okay. Got it.
    Mr. Homan, is there a crisis on the border?
    Mr. Homan. Of course.
    Mr. Jordan. And has there been a crisis there for a long 
time?
    Mr. Homan. Yes.
    Mr. Jordan. I just want to get--because your testimony is 
at the broader issue, and this is critically important, but we 
also have a broader issue there. We got unbelievable numbers 
we've seen on the border with apprehensions and everything 
else. Right?
    Mr. Homan. Absolutely.
    And if I can respond to the earlier remark from Wasserman 
Schultz, I've forgotten more about this issue than you'll ever 
know. So if you say my testimony is inaccurate, it's wrong. 
Everything I said here is accurate. Bottom line. If you want to 
go toe to toe, I'm here. I'm here on my own time to speak to 
the American people about what's false and what's fact.
    Ms. Wasserman Schultz. I'm sure happy to go toe to toe with 
you, Mr. Homan. Happy to do it any day.
    Mr. Homan. Well, I'm here. But you've got to let me respond 
to your question rather than dropping a bomb and running away.
    Ms. Wasserman Schultz. It was my time----
    Mr. Homan. So, there is a crisis on the border, and it is 
not going to go away if we keep enticing more and more--if we 
want to abolish ICE, we want to give away college education and 
driver's licenses and free medical care, and reward illegal 
behavior, you're never going to solve the immigration crisis on 
the border. It's not going to happen.
    Mr. Jordan. It probably doesn't help when certain Members 
of Congress criticize the agents down there trying to do their 
job. It probably doesn't help when you have pictures put on 
websites that talk about cages when, in fact, the picture was 
from the Obama Administration. Probably doesn't help when you 
say the crisis is fake, contrived, and manufactured, and hold 
off spending the $4.6 billion we needed to actually deal with a 
crisis that got much worse. Probably doesn't help with all 
those factors either, does it?
    Mr. Homan. No, sir.
    Mr. Jordan. Probably doesn't help that you've got cities 
declaring themselves sanctuaries. That probably doesn't help 
the situation either.
    Mr. Homan. And it doesn't help to have a mixed message, 
that all of a sudden deferred action is going away, that all of 
a sudden prosecutorial discretion's going away for this policy 
change. I myself have approved many requests for stays of 
removal for medical issues. ICE doesn't put their heart on the 
shelf when they wear the badge and gun and all of a sudden 
don't care about humanity. It's ridiculous. It's a ridiculous 
false narrative. And I'm going to be here till the day I die 
defending the men and women of the Border Patrol and ICE who 
put it on the line everyday for this country.
    Mr. Raskin. Thank you. The gentleman's time has expired.
    Mr. Jordan. Thank you for your service.
    Mr. Raskin. I recognize Representative Ocasio-Cortez for 
five minutes of questioning.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair. And I would like 
to thank my colleague Ayanna Pressley and Mr. DeSaulnier for 
your work also in organizing this hearing and a critically 
important issue at this time.
    Ms. Bueso and Mr. Sanchez, I want to thank you both for 
coming to testify. I would like to thank all of our witnesses 
for coming to testify before this committee. It is enormously 
taxing, physically, emotionally, mentally to come here and to 
testify before this committee and to prepare for your 
testimony, no less to testify for the length at which you all 
are doing. So, I'd like to thank you. And I'd like to recognize 
that you're doing it not just out of self-preservation, but to 
make sure that thousands of children and other people in the 
United States are protected.
    I'd also like to apologize to you both for the behavior of 
some of the members of this committee where they are speaking 
in profoundly dehumanizing terms to you, and you don't deserve 
that. I would like to apologize to you on behalf of the United 
States of America for the dehumanizing policies that they are 
pursuing to--that are, frankly, targeting you and targeting 
many people in the United States. And we're fighting for a 
better country that we can be proud of when it comes to how we 
treat all people and understanding the circumstances that they 
are coming from. And I'd also like to recognize the intrinsic 
value that you have and offer to everybody that you encounter 
in our country.
    Speaking of which, Ms. Bueso, do you remember a long time 
ago, and you may not, but in 2003, participating in a clinical 
trial for MPS-VI in Oakland, California?
    Ms. Bueso Barrera. I was really young, I was seven, but I 
do remember coming here with my mom and being participating in 
clinical trial.
    Ms. Ocasio-Cortez. You said you were seven years old?
    Ms. Bueso Barrera. Yes, seven or eight, yes. In 2003.
    Ms. Ocasio-Cortez. Do you remember--and again, I know you 
were very young, but do you remember a girl named Maria Abreu?
    Ms. Bueso Barrera. Is she from New York?
    Ms. Ocasio-Cortez. She's from New York.
    Ms. Bueso Barrera. Yes.
    Ms. Ocasio-Cortez. She's a constituent of mine, and she 
wants to write and submit to the congressional Record a letter 
of support for you to stay in the United States.
    So, Mr. Chairman, I would like to seek unanimous consent to 
offer this letter to the congressional Record.
    Mr. Raskin. Without objection, the letter will be entered.
    Ms. Ocasio-Cortez. And clearly, you had a profound impact 
on her.
    Ms. Bueso Barrera. Yes.
    Ms. Ocasio-Cortez. And I think it's a testimony to your 
character and just who you are as a person.
    That being said, Ms.--Professor Wadhia, direct and deferred 
action, rather, ensures that children can stay in the United 
States to receive treatment for life-threatening medical 
conditions without fear of being deported. Correct?
    Ms. Wadhia. Correct.
    Ms. Ocasio-Cortez. And deferred action is subject to very 
strict internal controls. You have reviewed hundreds of these 
actions, of these cases. And the reasons for granting deferred 
action are generally limited to very serious life-and-death 
issues. Isn't that correct?
    Ms. Wadhia. Correct.
    Ms. Ocasio-Cortez. So, folks and people like Mr. Sanchez 
and Ms. Bueso are not collateral damage to this 
administration's policy. They are the target, correct?
    Ms. Wadhia. Correct.
    Ms. Ocasio-Cortez. Is targeting and changing policy to 
specifically target people with life-threatening diseases for 
deportation essentially killing them through deportation? Would 
you characterize that as cruel?
    Ms. Wadhia. I would.
    Ms. Ocasio-Cortez. This is a cruel policy change, and this 
fits a pattern that we have been seeing over and over again 
before this committee of a culture and an of policies 
specifically almost animated by cruelty. We hear over and over 
again, and we've heard it today from folks across this 
committee, that they're underresourced, that we have to 
continue dumping billions of dollars into enforcement, into 
putting children in cages, into a system that is quite 
literally killing people. But meanwhile, we are adding to the 
resource strains by forcing people to go through the ordeal, 
forcing this country through the ordeal of needlessly deporting 
people, like Ms. Bueso and Mr. Sanchez.
    Of course you are underresourced because--underresourced 
for your goals because your goals are to deport people that 
have no reason, human--on humanitarian grounds or otherwise to 
be deported. Would you agree with that, Dr. Wadhia? Is that an 
assessment? Is that how it strikes you?
    Mr. Raskin. The witness may answer the question.
    Ms. Wadhia. It does, and it goes to my testimony about how 
we spend resources. This change in policy also throws a wrench 
into the rule of law because of the fact that discretion is 
such a necessary component and part of the rule of law. We have 
to make choices about who we're going to target for removal and 
who we're going to place----
    Ms. Ocasio-Cortez. And when we want to talk about morale--
--
    Mr. Raskin. Okay. The gentlelady's time has expired now.
    I want to recognize Mr. Meadows for five minutes for his 
questions.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Marino, I wasn't going to ask questions, but I'm trying 
to get my hands around this. And you made a statement that--
what program is going away? You said a program is going away in 
this deferred action in terms of case-by-case situation. From 
what I understand, it's not going away; it's just the proposal 
is to move it to ICE. So, why--what program is going away?
    Mr. Marino. I haven't seen any proposal to move anything to 
ICE and----
    Mr. Meadows. So, what program is going away?
    Mr. Marino. Deferred action before USCIS.
    Mr. Meadows. But where are you getting your documents--I 
guess what I'm saying is, is I'm not aware of any program that 
has been recommended that goes away. I mean, these cases have 
been opened back up, but my understanding was we were just 
going to move it over so the adjudication is actually handled 
by ICE. Is that not correct?
    Mr. Marino. No. My understanding is that was what--part of 
the problem here is that there have been no--there was no 
public notice of any of this. So, what we know----
    Mr. Meadows. Yes. But your statement to Mr. Jordan a few 
minutes ago was that the program was going away.
    Mr. Marino. Yes.
    Mr. Meadows. So, what program is that?
    Mr. Marino. Medical--deferred action at USCIS.
    Mr. Meadows. And you're basing that deferred action is 
going away based on what?
    Mr. Marino. So, the denial notice we received----
    Mr. Meadows. That's one notice for one individual.
    Mr. Marino. No, no. Well, every one that I've seen has been 
identical. They're all----
    Mr. Meadows. No, no. I get that for the 400 and some odd, 
but we're reopening that up. So, I guess--here's what I don't 
want to do is create panic assuming that we're going to do away 
with deferred action when I haven't seen anything from either 
of the groups that would suggest that.
    Mr. Marino. It says USCIS field offices no longer consider 
deferred action requests.
    Mr. Meadows. Right. To move it to a different process.
    Mr. Marino. No, that part's not here.
    Mr. Meadows. No, I understand it is not in that letter. But 
didn't you get a followup letter on that which says they're 
opening up for the adjudication?
    Mr. Marino. No.
    Mr. Meadows. Yes.
    Mr. Marino. So, then they issued a press alert that they 
were going to reopen these cases.
    Mr. Meadows. Right. So, anybody that you have in the queue 
right now----
    Mr. Marino. Which they said USCIS stopped its consideration 
of deferred action for nonmilitary requesters. So, they said 
that the cases that were pending as of August 7, they were just 
going to clear out those cases. But the program, deferred 
action has still been ended.
    Mr. Meadows. All right. So, Mr. Chairman, let me--what I 
would like to--excuse me, Madam Chairman--I didn't see you pop 
in the chair there. Madam Chairman, I would like to--let's work 
together. I think what we've got is a situation where--you 
don't have a compassionate bone in your body if you're not 
looking at this and saying we've got to address this. We're 
going to address this.
    Here's what I also don't want to do, Mr. Marino, is assume 
that we've got this panic out there that we're going to do away 
with everything. I would like to work in a bipartisan way to 
figure out how we look at the humanitarian needs that we have 
and yet do it in a way that is systemically reasonable and yet 
efficient. Does that sound fair?
    Ms. Ocasio-Cortez.
    [Presiding.] I think it sounds fair. I think it'd be good 
for us to come together and at least provide some certainty for 
the lives of these folks.
    Mr. Meadows. And I'll yield the balance of my time to Mr. 
Roy.
    Mr. Roy. Thank you, Mr. Meadows.
    Just adding on that, the same question, just to extend, is 
it my--and let me ask you this, Mr. Homan, you said earlier 
that you think, Mr. Homan, that ICE is the proper place to deal 
with these questions. Am I mistaken in my understanding that 
what we've got here is simply, for better or worse, for this 
hearing to decide and for the purposes of what Mr. Meadows and 
Ms. Ocasio-Cortez were just talking about, how this process 
should work. In other words, in this case, USCIS is saying, 
we're not processing after August 7, right, or we're not going 
to handle these, we're not going to make these deferred action 
decisions after August 7. Essentially, then that goes to ICE, 
and then ICE is going to have to make--I mean, although ICE 
will deal with the decisions they're going to deal with respect 
to expedited removal decisions or anything else. And then ICE 
can choose to figure out how to handle these questions if ICE 
puts policies in place that would allow that to occur.
    I mean, is that--Mr. Homan, your recommendation or thought.
    Mr. Homan. ICE, they make prosecutorial discretion 
decisions every day. Do we arrest, do we not arrest? Do we 
detain, do we not detain? Do we put in proceedings, not put in 
proceedings? Do we remove or not remove? And I just said 
earlier, I have personally approved deferred action requests 
stays of removal for medical issues. So, it isn't like the 
whole process is going to go away. It's a bureaucratic process 
to move from one agency to the other agency. And it's currently 
in an agency that I don't think should have the authority over 
making decisions that the other agency has statutory authority 
over. That's the basis of all prosecutorial discretion matters.
    Mr. Roy. And let me just add one thing. It's just--we'll 
ask this question of the next panel, right, about what their 
intent is. And then I--when I get my time back, I want to 
address with Mr. Marino, your head is shaking both directions, 
so let me do that when I get back.
    Ms. Ocasio-Cortez. Thank you.
    The chair now recognizes the gentlelady from Massachusetts, 
Ms. Pressley.
    Ms. Pressley. Thank you, Madam Chair.
    I do want to say that our colleagues across the aisle have 
stated outright and implied that there are dramatics happening 
on this side of the aisle. No drama, just hard facts. And that 
is that, repeatedly, people have been asked to weaponize their 
lived experiences and their pain which has been brought about 
by neglect or by intentional attacks by this administration 
time and time again. People have come before this committee to 
talk about the trauma of gun violence, the trauma of what's 
happening at our borders, the trauma of negotiating lifesaving 
medication, like insulin. And now, the trauma and the fear of 
children, people that are coming before this committee, 
demanding that we see the humanity and the dignity in them, 
appealing for their very lives. That's where we find ourselves.
    So, just when I think that the occupant of this White House 
and his xenophobic administration cannot reach any new lows, 
they go even lower, deciding to give seriously ill children and 
their families 33 days to leave the country or risk being 
deported. No dramatics; the hard facts. And because of the 
outrage by millions of Americans, because this does fly in the 
face of the values that we espouse as a Nation and the public 
outcry, and the partnership of my colleagues and the leadership 
of this committee, we are having this hearing today to shine a 
spotlight on this appalling policy, that lives are hanging in 
the balance and to hold this administration accountable. No 
dramatics, no posturing, just the hard facts.
    And to add insult to injury, they try to do this under the 
radar, no public announcement, no opportunity or effort to hear 
from those most impacted. Appalling, shameful. These families' 
stories have spurred righteous rage, public outcry, and 
rightfully so.
    And I want to thank Mr. Sanchez and Ms. Bueso for joining 
us, for your bravery. You are true patriots by every 
definition, in my estimation. I can only imagine how hard this 
is, battling a chronic life-threatening illness, layered by the 
threat of deportation. I would want to also thank your 
caregivers and your caretakers and your families for being here 
with you and what they do every day.
    Mr. Marino, can you please just succinctly clarify, because 
there's been a muddying of the waters here, truly a revisionist 
history--we would not have Ms. Bueso and Mr. Sanchez here doing 
what they are doing in the face of great physical and emotional 
burden if this was a fake panic. So, can you please clarify the 
revisionist history by my colleagues on the other side of the 
aisle and tell us why do you think it is necessary for USCIS to 
continue to grant deferred action, and just speak to what has 
transpired here?
    Mr. Marino. Sure. I'll give you a little bit of the history 
as I understand it and what we've learned. I also think that 
Dr. Wadhia is probably better prepared to answer some of this 
of why it belongs at USCIS, where this program always has been.
    There is no new program at ICE, and none of my clients are 
eligible to apply for anything from ICE. They can't walk into 
an ICE office and apply for deferred action the way that they 
always have from USCIS. I believe that what Mr. Homan is 
talking about, he's saying he's granted stays of removal in the 
past, that's only available to people who have been ordered 
removed and are on orders of supervision. So, they've been 
ordered removed and ICE is actually carrying through with 
deporting them. It's basically on your way to the airport, you 
can ask us for permission to stay for a year and maybe then 
we'll consider it.
    So, I don't know. Is the suggestion--I don't understand it, 
but it seems like maybe the suggestion is that you drag kids 
from their hospital beds into courtrooms, make them go through 
a removal proceeding, have a judge order them deported, then 
turn them over to ICE, and then maybe they're going to exercise 
discretion. I don't really understand.
    Ms. Pressley. I'm going to reclaim my time. I'm running low 
on time here.
    Mr. Marino. Sure.
    Ms. Pressley. Dr. Wadhia, is there something you want to 
add on the record?
    Ms. Wadhia. When it comes to affirmative deferred action 
requests, this is a policy that has been in the jurisdiction of 
USCIS since its inception. These are individuals who are not 
yet in the removal system.
    Ms. Pressley. And it has been terminated.
    Ms. Wadhia. And it has been terminated.
    Ms. Pressley. Okay.
    Ms. Ocasio-Cortez. Thank you.
    The chair now recognizes the gentlewoman from West 
Virginia, Mrs. Miller.
    Mrs. Miller. Thank you, Madam Chairman and Ranking Member 
Roy and to all of you all for being here today.
    Ms. Bueso and Mr. Sanchez, I want to thank you for sharing 
with us your life stories and experiences that you've had. It 
has helped shed light on the plight that many are facing and 
the need for clarity in our immigration system. And I want to 
reiterate what the gentlemen from North Carolina and from Texas 
are expressing as well: we need clarity and we need to 
understand how we can move forward in a positive way.
    Mr. Homan, I would like to direct my questions to you 
today. I know that in these past couple of months, we have had 
multiple hearings in this committee on the topic of 
immigration. Has all of this rhetoric helped move the ball 
forward on solving our Nation's larger immigration issues?
    Mr. Homan. I missed the last part of that question, ma'am.
    Mrs. Miller. I said has all of this rhetoric helped move 
our Nation into solving the immigration issues?
    Mr. Homan. No.
    Mrs. Miller. How would you characterize the Trump 
administration's response to the southern border crisis?
    Mr. Homan. I think he's doing the right thing. I think he's 
the right guy at the right time doing the right thing. Numbers 
are down 56 percent from the high only because of his actions, 
not actions of anybody in this building.
    Mrs. Miller. When we had the Acting Secretary here in July, 
he discussed how over 5,000 migrants presenting themselves as 
family units in the Fiscal Year 2019 turned out to be 
fraudulent. How does our current immigration law incentivize 
illegal entry into our country?
    Mr. Homan. Because there're loopholes that exist that cause 
families and children to come to this country. And that's one 
thing--of course, I'm constantly attacked at being--I'm the 
devil, but if anybody in this room has ever worn a green 
uniform and seen what I've seen in my career--I've seen many 
dead children and many women that were raped, 32 percent 
numbers from Doctors Without Borders, and that is the issue. 
It's not about securing a border, which no one on this panel 
should argue a secure border is a better United States. But 
it's not just about enforced laws securing borders; it's about 
saving lives.
    And I feel what's going on here today--and there are many 
cases that deserve deferred action, significant medical issues. 
So, don't say that this administration doesn't care about this, 
because I personally have approved deferred action medical 
care. But what I'm saying is there's a flip side to this coin. 
Many, many more lives are lost every year. Border Patrol saved 
4,000 lives last year, people that would have died if they 
wouldn't have been rescued. People are drowning in the river, 
children are dying, women are being raped.
    Mrs. Miller. Repeat that number, please.
    Mr. Homan. Four thousand rescues. And what I'm saying is we 
have hearing after hearing after hearing, but I haven't been 
involved with one hearing talking about fixing the problem 
that's causing the surge. But you want to talk about family 
separation, you want to talk about terrible detention 
conditions, you want to talk about, you know, this deferred 
action. And I get it, it is all important. But when are we 
going to talk about fixing the problem of saving lives and 
securing our Nation?
    Like everybody here, I don't care if you're Republican or 
Democrat, your No. 1 responsibility is to secure this Nation. 
And there's no downside in protecting Americans and securing 
our border. And if you don't like it, legislate. Don't ask 
people to ignore the law or twist the law or bend the law or 
find loopholes here or loopholes there. Legislate. Do your job 
and fix it. It can be fixed, but it's going to take a backbone 
to get it done.
    Mrs. Miller. So, once again, given all the political 
rhetoric in Congress within the last couple of months, there 
hasn't been a lot of action on fixing this from my colleagues 
on the other side. Can you elaborate on the importance of a 
congressional action on immigration?
    Mr. Homan. It's going to save lives. It's going to take the 
money out of the cartels' hands that not only will smuggle 
people and traffic children that are coming to this country 
with relatives. They claim are relatives, aren't relatives. We 
have numerous investigations. Children are being trafficked.
    And I hear a lot of, you know, sympathy today and I share 
that sympathy, but let's not forget about the other population. 
Children are trafficked and used by criminal cartels, 32 
percent of women are being raped. Border Patrol agents have 
died defending our Nation. So, I don't understand why Congress 
can't step up and take this seriously and fix the issue. This 
is fixable, but it's--people are too busy resisting this 
President, wanting to see the President of the United States 
fail in the most important issue facing this Nation right now, 
because it's more important about politics and power than doing 
your job. It should be about love of country, love of securing 
this Nation, protecting Americans, and saving lives of people 
that are vulnerable trying to come to this country because of 
the enticements and because we fail to address the loopholes 
that are causing it.
    Mrs. Miller. Thank you, Mr. Homan.
    I yield back my time.
    Ms. Ocasio-Cortez. Thank you.
    The chair now recognizes Chairman Cummings for five minutes 
of questioning.
    Mr. Cummings. Thank you very much.
    Mr. Marino, I just heard Mr. Homan say do your job and this 
could be fixed. Today's hearing is about deferred action. And 
if we had a House and if we had a Senate that would pass 
legislation and we had a President that would sign it, this 
problem which is the subject of this hearing today could be 
fixed. Am I right?
    Mr. Marino. Absolutely. I think that the program that's 
been in place for deferred action at USCIS would be best 
formalized by legislation. But back to Dr. Wadhia's point, that 
doesn't mean that there doesn't always have to be some----
    Mr. Cummings. Discretion.
    Mr. Marino [continuing]. Discretion involved, right.
    Mr. Cummings. And I want to thank our witnesses again for 
being here today. And I especially would like to thank Ms. 
Bueso and Mr. Sanchez. You are here to remind us that this 
administration's decision to stop requesting for deferred 
action has had real consequences on real people.
    Ms. Bueso, let me start with you. What has been the hardest 
part about living with your disease?
    Ms. Bueso Barrera. The hardest part about my disease? Is 
that the question?
    Mr. Cummings. Yes.
    Ms. Bueso Barrera. I think it is the problem that goes with 
it in my body, that I need lots of surgeries. Recently, I had a 
spine surgery due to my condition. I guess when I was younger, 
just getting needled every week, because I was young so I 
didn't like it. But as I got older, I got used to it at this 
point. But I don't like to see my disease as a horrible thing, 
because, yes, I have a disease, but I've been opening doors for 
others, continue doing the clinical trial to help other people.
    But I think the hardest of my disease has been, you know, 
in the hospital all the time, doctors' appointments all the 
time, which is not normal for all of my friends, but it's my 
life. But, yes.
    Mr. Cummings. I really do think that we are in a moral 
situation. People are striving to live, trying to breathe the 
air of our country, trying to be better, trying to be healthy. 
Would you agree that this is a moral issue?
    Ms. Bueso Barrera. What's the question?
    Mr. Cummings. Would you agree that we're at a moral--it's a 
moral issue? In other words, when you're dead you're dead.
    Ms. Bueso Barrera. Yes.
    Mr. Cummings. You agree?
    Ms. Bueso Barrera. Yes, because it's been really an 
overwhelmed situation just knowing that you have to leave in 33 
days. In my mind, I was just thinking, you know, when I 
receive--when I saw the letter, the only thing that I could 
think of is, oh, my goodness, my medicine that has helped me 
keep my life for so long--because as I mentioned before, many 
doctors thought I was not going to live till my teen years, and 
I'm 24 years old now and graduated from college, summa cum 
laude. So, I'm really blessed on that. But yes, so it's really 
a death sentence for me.
    Mr. Cummings. And you participated in student leadership?
    Ms. Bueso Barrera. I'm sorry?
    Mr. Cummings. You participated in student leadership?
    Ms. Bueso Barrera. In what?
    Mr. Cummings. In other words, your student government?
    Ms. Bueso Barrera. Oh, yes. Oh, yes, I was a director, a 
director at my campus with the----
    Mr. Cummings. Go on now.
    Ms. Bueso Barrera [continuing]. Student government. Yes, I 
represented the whole Concord campus on my own.
    Mr. Cummings. Well, thank you for being here.
    Ms. Bueso Barrera. Thank you.
    Mr. Cummings. I yield back.
    Ms. Ocasio-Cortez. Thank you.
    The chair now recognizes Mr. Grothman for five minutes of 
questioning.
    Mr. Grothman. First of all, Mr. Homan, I'd like to say I 
respect--I've been at the border three times. I respect law 
enforcement. I deal with a lot of law enforcement, Sheriff's 
Department, police department, corrections officers. There is 
nobody who I have a higher opinion of than Border Patrol and 
ICE. The compassion these folks have had under the most trying 
circumstances is something that should ever be commended. I 
feel bad that some other members of this institution like to 
slam you folks to make cheap political points, because if they 
ever met you and were honest with you, they would have a high 
opinion of the whole crew down there.
    Now, I guess we haven't decided yet that ICE is going to be 
the one making these determinations, but you've dealt with a 
lot of ICE officials and you've been involved for a long time. 
As a practical matter, could you ever under any circumstances 
see, if they had that discretion, anybody from ICE kicking 
someone like the two people on the other end of the panel out 
of this country?
    Mr. Homan. Absolutely. I've heard here today there's cases 
here that deserve the attention of prosecutorial discretion. 
And ICE does that every day. We--I personally have approved 
when I was ICE director.
    Mr. Grothman. This would never happen. In other words, what 
I'm trying to get at, do you believe these folks are here to 
create an unnecessary fear that's never going to happen anyway? 
In other words, they are scaring people who shouldn't be 
scared, because your former organization would never kick 
somebody like this out of the country?
    Mr. Homan. I understand their testimony and I applaud them 
for being here and telling their story. They have a good story 
to tell. And regardless if it's CIS or an ICE officer, I think 
they'd make the right decision.
    Mr. Grothman. Right. You could not see them kicked out of 
this country, could you?
    Mr. Homan. No.
    Mr. Grothman. Okay. I'll give you a couple of other 
questions. We right now have an overall crisis at the border, 
and I think everybody who is down there knows a variety of 
things that can be done. Our underlying problem is we have way, 
way, way too many people in this country who are not here 
legally. Could you give us a general summary of a couple of 
suggestions you have for Congress that we could do that would 
reduce the number of people in this country illegally so we 
wouldn't have to make so many judgment decisions?
    Mr. Homan. There's three things that we've been talking 
about for the last two years. One's the Flores settlement 
agreement. Back in Fiscal Year 2014 and 2015, when the family 
crisis first started, we detained families for 40, 50 days 
until they saw a judge. It wasn't until Flores reinterpreted 
the decision that we can only hold them 20 days, which isn't 
long enough to see a judge. So, we would like to be able to 
detain them long enough to see a judge. We did it under the 
Obama Administration. I don't know why we can't do it now.
    Mr. Grothman. We hold President Trump to a significantly 
higher standard of care than Barack Obama.
    Mr. Homan. But it worked, it worked. Once they saw the 
judge, a majority lost their cases and were removed.
    The second thing we need to do is look at the Trafficking 
Victims Protection Act, which is causing children to be 
smuggled by criminal organizations into this country, and treat 
children from Central America the same as you treat children 
from Mexico. If you can ascertain and prove that they're not a 
true victim of trafficking, then they shouldn't get a whole 
different process than children from Mexico get. They can be 
removed easier and reunited with families.
    The third thing is the asylum levels. Most people pass the 
first interview at the border at about 88, 90 percent rate, but 
once they get in front of an immigration court, the current--
the last time I saw, 88 percent of all Central Americans who 
claim fear at the border do not get relief from immigration 
court. So, the delta is too high. We need to close that delta 
and make it more meaningful, where people aren't released into 
the United States to not only not appear in court, but to not 
listen to the orders of a judge. Like I said, 90 percent lose 
their case, there's over 100,000 removal orders from family 
units, but less than two percent have left.
    Mr. Grothman. Thank you.
    Now, something's been said about, in all of these hearings, 
about separating families. We would be appalled if a minor 
child from the United States went off to Honduras and the 
Honduras Government wouldn't send them back to their parents. 
Right now, if somebody who is an unaccompanied minor comes to 
this country, do we send them back to their parents or do we 
keep them here?
    Mr. Homan. The unaccompanied alien children are given over 
to ORR. They're in their custody. Most of them are--less than 
two percent have been removed, most are here. And that's an 
issue that no one wants to talk about, right. We talked about 
the 2,500 separations, but at the same time, there are 14,000 
children in custody in ORR that were smuggled to this country 
by criminal cartels. That's inhumane.
    Mr. Grothman. And nobody cares.
    Mr. Homan. I think the government takes better care of them 
than a criminal cartel would.
    Mr. Grothman. Absolutely. Thank you.
    Ms. Ocasio-Cortez. Mr. DeSaulnier, you are recognized for 
five minutes of questioning.
    Mr. DeSaulnier. Thank you, Madam Chair.
    And I want to thank the witnesses. I have a prejudice 
toward one in particular. And I want to thank my colleague, Ms. 
Pressley, in particular, as we represent the two of you, and 
working with her on this issue. Being from San Francisco and 
Boston, we're proud of our medical leading institutions of 
which you have both benefited from. It's been terrific, as 
always, working with my colleague from Boston. And we hope to 
go further.
    On the bigger conversation, Mr. Homan, I just want to 
remind folks that most of us on this side want to have a secure 
border, but we want to have a humane border, and we want the 
police agencies to follow the Constitution and the legislation. 
I'm not saying you're not, but I have been proud to have police 
support every time I've run for office since 1991. I take a lot 
of ride-alongs. I've seen good cultures. I'm not an expert, but 
I've spent a lot of time, and I've seen bad cultures. I'm not 
saying--judging that one way or the other. I believe we should 
be working on this together.
    And I would remind my colleagues that in 2013, Senate Bill 
744 was a bipartisan effort, led by Senator Rubio and Senator 
McCain, Senator Durbin and Senator Schumer on the Democratic 
side, passed out almost unanimously, overwhelmingly bipartisan. 
And its's my understanding that because of members and certain 
fraction in the Republican caucus, the Speaker never brought it 
for a hearing or a vote. More recently, Representative Hurd, a 
Republican, and Representative Aguilar in the last Congress, 
worked together on H.R. 4796, and likewise, that never received 
a hearing.
    So, if you wonder why there haven't been hearings, I think 
there is certainly shared responsibility. I would argue there 
is much more on the other side. And I'm open to working with 
people. It's a problem that a functioning Congress would come 
up with a bipartisan solution. And Members have tried that. 
Unfortunately, there are people who don't, in my view, want to 
have a solution because it works for them politically.
    Isabel, I just want to walk through your experience. And I 
want to say for the record, what I heard from some of my 
colleagues on the other side, from Mr. Jordan and from Mr. 
Meadows, a commitment to us that they would work with us to 
make sure that you are in this country for a long time, both of 
you and the people who are here. So, let's just walk through 
what happened with us.
    You did everything you were asked of. You were asked by a 
Federal agency to come and be part of this trial to save lives, 
Americans and others. You came here legally. You went under 
excruciating treatment for all these years. You still go every 
week. You paid for it with private pay insurance. Your family 
came here. You've been here legally the entire time. You have 
been approved four times, as I understand, one during the Obama 
Administration, for deferred action, and one during this 
administration.
    What did it feel like on August 13 to get this form letter 
that, to my anger, I've carried in my pocket ever since you 
gave it to me. We get it. And it isn't even signed by the 
regional director, who I'd like to talk to and find out why he 
didn't have the courage to sign it. He had to have somebody 
else sign it for him.
    And before you start, my district director, who's worked on 
these cases for years, was traumatized, because the people who 
we work with in the regional office of San Francisco, the first 
conversation with USCIS was, it's policy, we can't talk to you 
about it anymore. When we went to ICE they said, we don't know 
anything about it. I think they were embarrassed, and they've 
got mortgages to pay, but we couldn't--my colleagues to just--
I'm encouraged by them wanting to fix this. But on the other 
hand, somebody has to be held goddamn accountable for what 
happened and continues to happen. And we still don't know what 
will happen.
    So, Isabel, just tell me, with the remainder of my time, as 
much as you want to talk about, what it felt like and what it 
continues to feel like for you and your family to live in 
circumstances like this where you still have to seek treatment?
    Ms. Bueso Barrera. So, just really quick, the way I found 
out about this horrible letter was actually after my treatment. 
I was coming down with my mom, normal day like every Friday, 
and then our lawyer called saying that our letter for the 
program was denied and you have 33 days to leave. I cried. I 
was shaking. I was pale. I was just so scared. Like--because 
this is like the first time that we received this kind of 
letter, because as I mentioned, we've been here for 16 years 
legally, and this is the first time that we got denied. So, my 
heart just stopped, everything. I was shaking. I was scared. I 
just went to my doctor's office and just told him about it, and 
then we were just scared. And right now, I'm still overwhelmed 
with different emotions. So, yes.
    Mr. DeSaulnier. Thank you, I'm really proud of you.
    I yield back.
    Ms. Ocasio-Cortez. Thank you.
    The chair now recognizes Ms. Tlaib for five minutes of 
questioning.
    Ms. Tlaib. Thank you, Madam Chair.
    Thank you all so much for your incredible courage to come 
before this committee. I can't underestimate the fact that 
there are so many people that cannot be in this room and that 
you're here on their behalf. And so I thank you from the bottom 
of my heart. Even as a mother of two, as somebody that knows 
people in my district depend on these humanitarian programs, I 
want to thank you again, all of you, so much.
    Also, Professor Wadhia and I have been trying to fight for 
comprehensive immigration reform on the outside as a young law 
student when she was working on trying to educate this chamber 
over and over again about the broken immigration system and why 
we needed to fix this. So, I'm really, really proud to see you 
here before the committee. And you still have not backed down 
in trying to tell the truth about what needs to happen with our 
immigration system. So, I thank you for that.
    Some have claimed here in this committee, and folks that 
I've read, that there is no need for CIS to provide deferred 
action because ICE is capable of serving this function. And you 
see the person testifying for the other side here saying that, 
and I simply think it's a lie. It's a lie. You know, one of the 
things--I've only been here eight months, but gaslighting seems 
to be kind of a thing here. And ICE certainly has the power to 
defer deportation, but ICE generally does this by issuing so-
called administrative stay. And there are critical differences 
between the release of USCIS grants under deferred action and 
ICE's administrative stays.
    So, Professor, I would like to ask you, please briefly 
describe the differences between CIS grants through deferred 
action and what ICE grants under administrative stays.
    Ms. Wadhia. Sure. And great to reconnect with you as well, 
Representative.
    So, with USCIS, these requests are made affirmatively by 
people who are not yet in removal proceedings, and often with 
compelling humanitarian reasons to be here like two of our 
witnesses. This is a practical form of relief too because it 
saves the government resources by not having to force someone 
to go into removal proceedings in order to request for 
protection. It also protects the individual from accruing 
unlawful presence during their time in deferred action.
    Contrast that to a world where ICE is exercising 
discretion. And I would agree with Mr. Homan, ICE does exercise 
prosecutorial discretion in a variety of ways. But there's a 
sharp contrast here. That discretion is often exercised after 
the person is in the removal system and often after the removal 
order has been issued. So, the government has spent enormous 
resources, and it may be months or years before a decision is 
made as to the individual's outcome.
    An administrative stay or a stay of deportation is one type 
of prosecutorial discretion in immigration law, and it is often 
exercised after someone has a removal order. So, again, we have 
the same practical, legal, and humanitarian impediment of 
choosing or using administrative stays as an alternative to 
affirmative deferred action at USCIS.
    Ms. Tlaib. And, you know, even as a former immigration 
lawyer, I remember, I mean, there's different consequences. And 
I don't know if, Mr. Marino, if you know this or not as well, 
there are different liabilities here, because--or what I would 
call additional consequences if ICE runs this program, because 
then it may impact whether or not in the future they can 
reenter the United States or obtain a visa in the future. Can 
you talk a little bit about that?
    Mr. Marino. Sure. If what we're talking about are stays of 
removal that ICE currently does----
    Ms. Tlaib. That's right.
    Mr. Marino [continuing]. Because it seems like they are not 
actually taking over deferred action. They're eliminating 
deferred action and then saying, but we may grant you a stay 
once you've been ordered removed. People who are ordered 
removed then face a 10-year bar on admissibility back into the 
United States, if they were in the future to become eligible 
for status here.
    And I can think of one example of a client we had who was 
here for lifesaving treatment for a child with medical deferred 
action. Unfortunately, the child did pass away. The family 
returned home, but then the father was able to come back as a 
permanent resident. And had they not been in medical deferred 
action, that would have never been an option. And his other 
daughter now is in college in the United States because that 
was available to them.
    Ms. Tlaib. Thank you.
    Mr. Homan, as a fellow American, I just want you to know 
your contribution as acting director of ICE under this 
administration will always be remembered as one that was very 
ruthless with inhumane treatment of asylum seekers, as the 
author of the separation policy, and now of this sick--you 
know, preventing people, sick children, before this committee, 
seeking lifesaving medical treatment. I will continue always--
this is probably the third time I think you're before this 
chamber--that I'm deeply troubled by your opening statement and 
continued assault on innocent lives.
    And I ask that this administration please stop playing 
politics with the lives of the children, before this committee, 
but also with the lives of many Americans that are directly 
impacted by the continued broken immigration system in our 
country.
    Thank you so much.
    Ms. Ocasio-Cortez. [Presiding.] The gentlelady's time has 
expired.
    Mr. Homan. Can I respond to that?
    Ms. Ocasio-Cortez. No. We're moving on to----
    Mr. Roy. Alexandria?
    Ms. Ocasio-Cortez. Yes.
    Mr. Roy. He was invoked. I would suggest he should be able 
to--at least be able to respond.
    Mr. Homan. How do I not respond to that? Is this about 
transparency or not?
    Ms. Tlaib. There wasn't a question. I said I was deeply 
troubled.
    Mr. Roy. I'll reclaim that time.
    Ms. Ocasio-Cortez. Would you like your time?
    The chair now recognizes Mr. Roy for five minutes, and you 
can feel free to use your time.
    Mr. Roy. Mr. Homan, I'll give you some time here in just a 
second on that.
    A couple of things and observations. First, to Ms. Bueso, 
and Mr. Sanchez in particular, thank you for being here. Wish 
you both well and long lives, and glad that you're able to get 
the care here.
    Ms. Bueso, I'm glad you're getting, you know, the kind of 
treatment you're getting. I too was in a program similar for a 
different illness, and I'm glad to be able to get kind of 
trial-type treatments, and glad that you're able to do that.
    A quick question that I want to try to--or statement and 
then some clarification. It is my observation that when DHS 
rolled this policy change--for lack of a better term, until I 
get to the second panel to ask USCIS--when they rolled it out, 
it is my view that it was not rolled out the way it should be 
rolled out, right. It should have been rolled out a different 
way. And we'll see what that looks like in the next panel.
    If one thought that ICE was the best place to deal with 
deferred action, it would seem to me that the debate then is 
whether--you know, the question here is where it should be. 
Should it be USCIS or should it be at ICE? And if you were 
going to accept that premise, then what should have been done 
was much clearer notice given and a different kind of 
transition.
    Like, let's just assume for a minute ICE is the best place 
for it. Then a letter should have gone out or a phone call or, 
you know, reach out and say, hey, no issue. You're going to 
keep getting health treatment. We're changing processes. This 
is the way ICE is now going to handle it, and so forth and so 
forth.
    So, I'd like to just stipulate that that's my view, that 
that's--that if you're transitioning the way you've previously 
handled something, then you need to have something like that. 
We'll ask the second panel about that.
    Having said that, I am interested in continuing to learn 
where it should exist. We'll hear from USCIS in a minute. But I 
want to understand, Mr. Homan, on that question--we'll come to 
this other stuff in a minute--with respect to ICE and why you 
think it's the best place, can you speak to the question at 
hand here about, I think, the fear of somebody's here, they're 
in a tough situation, and they're saying, okay, we're getting 
shoved into a pipeline for expedited removal and then hoping 
there might be a question of discretion?
    Mr. Homan. Well----
    Mr. Roy. And can you kind of walk through how that might 
work in ICE?
    Mr. Homan. Let's be clear on my testimony. What I've said 
is, as a law enforcement officer, prosecutorial discretion 
needs to be in the hands of those who have statutory authority 
over those laws. It is case-by-case determination. Once you 
carve out a whole class of people you want prosecutorial 
discretion, it's no longer prosecutorial discretion based on a 
case by case.
    Mr. Roy. Right.
    Mr. Homan. Now, we have talked about stays. That's what ICE 
currently do. They give stays of removal.
    Mr. Marino, what he says--I'm not disagreeing with him--is 
ICE prepared to make other decisions that CIS would make, and 
that's a question for ICE and the next panel. What I've talked 
about is ICE needs to have the authority of prosecutorial 
discretion, and that's a legal issue. And I think those 
decisions--no other agency is to say, well, ICE can't remove 
that person. That needs to be ICE prosecutorial decision, or 
you shouldn't put them in proceedings. That needs to be ICE's 
decision.
    Now, are they prepared to do that, because they normally 
don't? You'd have to ask the next panel that. So, I'm not lying 
in my testimony. I'm speaking to my 30 years of doing this and 
what I think prosecutorial discretion means.
    Mr. Roy. And the reason I think this matters, right, is the 
purpose of--I hope there's general agreement about the process 
and the communication and what should have occurred there, then 
we can have a debate, as I think we had a good conversation, 
Ms. Ocasio-Cortez and Mr. Meadows, about, okay, where do we go 
forward on this on that question. We'll ask the next panel some 
of these.
    But it is important for us not to send some signal of, you 
know, panic, to use Mr. Meadows' term, that anything is going 
to be problematic going forward, that we'll address the issue 
and try to reconcile whatever gaps there are here.
    I do think it's also important to note on this question of 
deferred action the question of when it is a discretion for a 
prosecutor, right. This is at the core of DACA and DAPA, right. 
We had this litigation in DAPA. We went to the court, and the 
court agreed that that was something more than discretion. That 
was something beyond discretion.
    And I think what we see here in a sort of separation here 
is that what we're talking about here is discretion. I think, 
Ms. Wadhia, I was looking at your testimony, the data points 
there. You said, one data I was able to identify included 118 
deferred actions of which 107 were approved, pending, or 
unknown, and a particular dataset that you had indicating that 
each one is case by case and there were eight that didn't 
qualify. I have no idea what those eight were, but, you know, 
that's a case-by-case decision.
    To that end, I'm going to ask one question--final--in my 
last five minutes. Mr. Homan, would you like to address, and 
would you please address any of the Statements made against 
you?
    Mr. Homan. Yes. I want to address the last comments made 
about me being appalling and--first of all, I served my country 
for 34 years. I saved many lives. And I ran an agency.
    Let's be frank in what ICE does. ICE last year seized 
enough opioids off the streets of this country that could've 
killed every man, woman, and child in the United States twice. 
They've arrested thousands of sexual predators that preyed on 
children. They rescued thousands of children who are victims of 
predators. They arrested hundreds of women who are victims of 
sex trafficking. I am proud of the agency and ICE.
    And what we don't want to talk about is nearly 90 percent 
of everybody ICE arrests for immigration violations either have 
a criminal history or are pending criminal charges when they 
were found, meaning they were found in a county jail, which 
most likely means they weren't a choir boy.
    So, to mis-message the work the men and women of ICE do 
is--I find appalling that a Member of Congress would throw that 
out there like that.
    Ms. Tlaib. Chair, now----
    Mr. Homan. In my 34 years, I've never seen such hate toward 
a law enforcement agency in my life that you want to abolish 
them----
    Ms. Ocasio-Cortez. Mr. Homan, the time is expired.
    Mr. Homan [continuing]. Rather than doing your job and 
legislate.
    Ms. Ocasio-Cortez. Mr. Homan, your time is expired.
    Mr. Homan. If they don't like it, legislate. You can't 
let----
    Ms. Ocasio-Cortez. Mr. Homan, according to the rules of 
this committee----
    Mr. Homan. I think this Congress is in the habit of 
enacting laws----
    Ms. Ocasio-Cortez. Mr. Homan, your time is expired.
    The chair now recognizes Ms. Hill.
    Ms. Hill. Thank you, Madam Chair.
    I was thinking about the 33-day notice issue and the fact 
that I worked in housing rights for a long time, and a landlord 
is required to give more notice in most states for somebody to 
move out into an apartment, let alone somebody who is facing 
life or death, children, trying to transfer medical care out of 
the country within 33 days.
    So, who I've heard from the most over the last week or so 
since this was--since this issue has come up were medical 
professionals. And days after the administration's policy 
reversal was revealed, the American Academy of Pediatrics, an 
organization of 67,000 pediatricians and pediatric specialists, 
wrote a public letter urging the administration to reverse 
course.
    AAP wrote, and I quote, "We implore you to reverse this 
decision so that countless children and their families can 
continue to apply for deferred action. For some children this 
is a matter of life and death."
    AAP also asked, quote, "Did USCIS consult with any experts 
in the medical care of children and families before making this 
decision?"
    Dr. Danaher, I understand you are a member of AAP, although 
you're not testifying on behalf of the organization. But are 
you aware of any members of AAP or other physician 
organizations that were consulted prior to the administration's 
reversal on deferred action?
    Dr. Danaher. No.
    Ms. Hill. And what would you have advised USCIS if you had 
been consulted about this decision?
    Dr. Danaher. I would have advised them that this is a 
lifesaving program that is absolutely necessary for these 
children's well-being, and that to inform families via a letter 
that their status in this country is at risk is not only cruel, 
but it is harmful to these children's health. They're already 
under tremendous stress, and to add on top of that this fear 
not only for their own healthcare, but for their safety, is 
just mind-boggling.
    I would also say that it's extremely difficult to transfer 
care anywhere within a month inside or outside of the country 
for kids like this.
    Ms. Hill. Oh, yes. Trying to transfer your care across 
state lines or even across community lines is incredibly 
difficult.
    So, since announcing this hearing two weeks ago, the 
committee has received letters from more than a dozen state 
chapters of the American Academy of Pediatrics, all expressing 
deep concern over this administration's decision on deferred 
action. The letters provide stories of critically ill children 
and their families who could be at risk under the 
administration's new policy, including two infants in a 
neonatal intensive care unit whose parents received letters 
from USCIS telling them to leave the country within 33 days 
with a child, an infant in intensive care.
    Mr. Marino, you noted in your written statement that the 
vast majority of cases your organization represents involve 
children whose lives are at stake. You said, quote, "we 
represent children confined to wheelchairs, connected to 
feeding tubes, and tracheostomy tubes."
    What has the reaction been from the doctors who treat the 
medically fragile children that your organization represents?
    Mr. Marino. I think they've been as shocked as we have and 
as our clients have been. It's astounding to think that this 
would happen at all and that it would happen just with a 
boilerplate form letter with 33 days' notice to get out. And a 
lot of--we partner with multiple hospitals in the Boston area, 
and so they're familiar with this program.
    We work with social workers and doctors on these cases, and 
they all know about it. And they send people to us when they 
have an emergency situation, that like this person's visa is 
going to expire and we can't discharge them. They send them to 
us. So, you know, they were very aware of this program and 
shocked to see that it had ended and especially the way that it 
had ended.
    Ms. Hill. Thank you.
    And, Ms. Bueso, thank you for your testimony, and thank 
you, Mr. Sanchez, as well.
    Ms. Bueso, you've devoted your life to advocating on behalf 
of other people with rare diseases. What is your reaction just 
from the people that you know and the 33 days and the kind of 
care that they're having to worry about, that the parents are 
having to worry about? Just anything you want to add to what 
you've already said.
    Ms. Bueso Barrera. I think, because I've been advocating 
for the MPS and the rare disease community, everyone is just 
shocked. Even my friends, they're like shocked. They didn't see 
this coming. Obviously, I have friends who also have MPS, and 
they're scared and they fear, and I try my best to calm them 
down. But I think everyone that knows me are just in shock and 
just terrified for me.
    Ms. Hill. Well, thank you all. And I would just reiterate 
that as this is coming from the medical provider community, we 
need to be looking at this not only as a humanitarian issue, 
but as a matter of life or death, and we cannot ever simplify 
it to something that is about an immigration policy and a form 
letter. It is not that simple. This is human life.
    So, thank you, and I yield back.
    Mr. Raskin.
    [Presiding.] The gentlelady yields. Thank you for your 
questioning.
    And finally, we'll go to Mr. Gomez for five minutes.
    Mr. Gomez. Thank you, Mr. Chair.
    First, one of the things I want to kind of really emphasize 
is that this administration tends to make decisions in a very 
rash way without a lot of thought. And we've seen this time and 
time--especially when it comes to the immigration issue, 
especially when it comes to Border Patrol, ICE, everything. 
It's just with no real thought about the consequences.
    And then they have one rationale when it starts and then 
another rationale when they get called out. You know, we've 
seen this when it came to the zero tolerance child separation 
policy. Jeff Sessions said, we hope that this deters families 
from coming to the United States because children will be taken 
away from them. You know, the outrage happened across the 
country. They reversed policy. Then all of a sudden, they're 
saying, we never had a child separation policy, right.
    And this is just a pattern that they have when it comes to 
this. They say one thing and then you do another.
    I know this is not the panel, but this is why they lack 
credibility, not the women of the Border Patrol or ICE. I'm 
saying the administration, when it comes to making decisions on 
these important issues, they lack credibility, right, because 
they say one thing and do another.
    Mr. Marino, you've got--what did the letter say?
    Mr. Marino. So, the letter said that--the initial letter 
said that USCIS field offices no longer considered deferred 
action cases, and then it said you are not authorized to remain 
in the United States. If you don't depart within 33 days, we 
may initiate removal proceedings against you.
    Mr. Gomez. Anything else? Footnotes?
    Mr. Marino. No.
    Mr. Gomez. Pictures?
    Mr. Marino. No.
    Mr. Gomez. Nothing, right?
    Mr. Marino. I think--actually, I have a copy of it, and I 
think it even said--yes. Thank you for your request for 
deferred action, so it said that.
    Mr. Gomez. And then all of a sudden, now they got pushback 
and now, oh, you know what, we're going to change it. Now it 
becomes we're just considering moving it from one, you know, 
agency to another.
    This is what this administration does. Like, it is what I 
think is a dumpster fire, right. How many acting directors and 
secretaries does this administration have?
    I joke around, even if you wanted to invoke the 25th 
Amendment, I don't think they have a Cabinet large enough to 
invoke the 25th Amendment. So, it is just ridiculous. And it's 
just frustrating because they really just go after the most 
vulnerable. 424 families, that's like--424 families. And it 
moves me because it's like you're going after folks that really 
need to be here to live.
    Ms. Bueso, first, I love your story about going to college. 
Congratulations. How did you and your family first find out 
about the deferred action that it had ended?
    Ms. Bueso Barrera. As I mentioned, the way we found the 
letter that it was denied was after my treatment. My mom and I 
were like, normal day, walking out of the elevator, and our 
lawyer called my mom saying that he received the letter for 
members. So, my mom, my dad, my oldest sister, myself, saying 
that policy change and you have 33 days to leave, without no 
notification, nothing.
    Mr. Gomez. How did your mother react?
    Ms. Bueso Barrera. She cried. She cried with me. They were 
like on the floor. They were just shocked because, like I 
mentioned before, I've been here legally for 16 years, and this 
is the first time that this happened to me and my family. So, 
we both cried tears. I was shaking to the point that my mom 
thought that I was going to go to the ER because I just lose 
it, honestly.
    Mr. Gomez. And how does your family feel about the partial 
reversal of policy?
    Ms. Bueso Barrera. It's just uncertain. It's not clear. 
We're just like--honestly, we just want something that is 100 
percent guaranteed, because as me and my family, and I'm sure 
other families, we definitely do not want to go through this 
again----
    Mr. Gomez. Yes.
    Ms. Bueso Barrera [continuing]. The next two years. So, we 
just want to make sure that there's something like guaranteed 
100 percent, because this has not been an easy ride for any of 
us at all, just being scared for our own life that we depend 
for medical attention.
    Mr. Gomez. Yes. Now, and you need and your family needs 
predictability, especially since the condition that you have. I 
just also want to just remind folks that this is about these 
individuals for--they went after 424 individuals with medical 
needs, right, without really any concern about what they 
would--how they would react, their families, the stress it 
would put out. Just a form letter, you know, that's it.
    My staff calls constituents when they write them letters to 
give them, you know, to say that they got the letter and to 
have a little discussion. We make more than 424 calls in a 
month with just my four staffers.
    They could've called. They could have had a good 
explanation, a caseworker, but they chose not to do that, 
because I do believe this administration doesn't really give a 
lot of thought on how a lot of these policy changes will be 
implemented.
    With that, I yield back.
    Mr. Raskin. Thank you. Mr. Gomez, thank you very much for 
your questioning. The gentleman yields back.
    I want to thank the entire first panel for really 
extraordinary and important testimony. I'd echo what 
Representative Eleanor Holmes Norton said earlier, which is 
that America really didn't understand about the existence of 
the deferred action program, and you've given us a great 
education. And I want to thank you.
    I want to thank Mr. DeSaulnier. I want to thank Ms. 
Pressley for their initiative in bringing this idea forward, 
bringing their constituents forward.
    And now, as the witnesses are switching out, we're going to 
call forward the second panel. All of you should be aware that 
you can receive additional written questions for the hearing 
record. And if you get them, please give us a prompt response.
    And we're going to go right to the second panel. So, we 
welcome them, and we thank all of you, Mr. Homan, Mr. Marino, 
Dr. Danaher, Dr. Wadhia, Mr. Sanchez, and Ms. Bueso, for your 
testimony.
    And as we're switching over here, we're going to enter--
let's see, I want to enter into the record 43 letters that the 
committee has received in recent days, including letters from 
the American Academy of Pediatrics and many of its state 
chapters, from the American Immigration Lawyers Association, 
the National Organization for Rare Disorders, as well as a 
number of other immigration and patient rights advocate groups.
    These letters discuss the grave consequences of the 
decision by USCIS for children who benefit from medical 
deferred action. I ask unanimous consent that these letters be 
entered into the official hearing record. It is so ordered.
    Mr. Raskin. Okay. The committee will recess just for two 
minutes for a break, and if we could switch over the panelists, 
that would be terrific.
    [Recess.]
    Mr. Raskin. All right. If all the members could find their 
seats, that'd be terrific.
    We are now delighted to welcome our final witnesses. We 
thank you for coming today. We thank you for your patience.
    We are joined by Timothy S. Robbins, the acting executive 
associate director for Enforcement and Removal Operations at 
the U.S. Immigration and Customs Enforcement in the Department 
of Homeland Security; and Daniel Renaud, the associate director 
for Field Operations Directorate at the U.S. Citizenship and 
Immigration Services, USCIS, in the Department of Homeland 
Security.
    If the witnesses would please rise and raise their right 
hands, I will begin the panel by swearing you in.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that both witnesses answered in the 
affirmative. Thank you very much.
    The microphones are sensitive, so please speak directly 
into them. Without objection, your entire written statements 
will be made part of the record. And with that, Director 
Robbins, you are now recognized to give an oral presentation of 
your testimony.

  STATEMENT OF TIMOTHY S. ROBBINS, ACTING EXECUTIVE ASSOCIATE 
DIRECTOR, ENFORCEMENT AND REMOVAL OPERATIONS, U.S. IMMIGRATION 
                    AND CUSTOMS ENFORCEMENT

    Mr. Robbins. Chairman Raskin, Ranking Member Roy, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today and to clarify any 
public confusion over ICE's role in this matter.
    As was stated in recent correspondence from USCIS, DHS may 
issue a notice to appear and commence removal proceedings under 
section 240 of the Immigration and Nationality Act before an 
immigration judge against removable aliens.
    It is critical to understand that ICE may only remove an 
alien from the United States when that alien has been issued a 
final removal order. Such orders are the result of a process 
provided for by law during which an alien has the opportunity 
to avail himself of a variety of procedural safeguards and to 
seek certain forms of relief from a removal.
    For example, an alien in INA section 240 removal 
proceedings has the right to be represented by counsel, to seek 
continuances, to contest removability, to apply for relief, to 
view, examine, and object to government evidence and witnesses, 
and to appeal IJ decisions to the Board of Immigration Appeals, 
all while having the proceedings before the immigration judge 
simultaneously translated at government expense into language 
that the alien understands.
    There are currently over 920,000 aliens in INA section 240 
removal proceedings nationwide. ICE has broad discretion and 
exercises that discretion as appropriate on a case-by-case 
basis throughout the immigration enforcement process in a 
variety of ways. For instance, discretion may be exercised in 
the course of deciding which aliens to arrest, which aliens to 
release from custody pending the removal proceedings, what the 
position of ICE will be on a claim, motion, or appeal made by 
an alien in immigration court, and which aliens will be 
prioritized for removal. ICE does not exercise discretion on a 
categorical basis to exempt entire groups of aliens from the 
immigration laws enacted by Congress.
    Deferred action is a discretionary act of administrative 
convenience by which DHS may delay or decline to exercise 
immigration enforcement authority in a given case. It is not a 
legal benefit and provides no lawful immigration status in the 
United States.
    ICE does not accept applications for deferred action. 
However, consistent with Federal regulations, an alien who 
becomes subject to a final removal order, such as when his or 
her INA section 240 removal proceedings conclude, may apply to 
ICE for administrative stay of removal using Form I-246, 
application for stay of deportation or removal.
    A stay of removal may only be sought by aliens subject to 
final orders of removal. ICE will consider all relevant factors 
in deciding whether to issue a stay of removal, including any 
claimed medical basis for this request. However, such stays are 
considered solely in ICE's discretion on a case-by-case basis.
    Thank you again for inviting me today, and I look forward 
to answering any questions you may have on ICE's role in this 
matter.
    Mr. Raskin. Thank you very much for your testimony.
    Mr. Renaud.

     STATEMENT OF DANIEL RENAUD, ASSOCIATE DIRECTOR, FIELD 
   OPERATIONS DIRECTORATE, U.S. CITIZENSHIP AND IMMIGRATION 
           SERVICES, DEPARTMENT OF HOMELAND SECURITY

    Mr. Renaud. Good afternoon. Chairman Raskin, Ranking Member 
Roy, Chairman Cummings, Ranking Member Jordan, and 
distinguished members of the subcommittee, thank you for this 
opportunity to discuss deferred action.
    My name is Daniel Renaud, and I'm the associate director of 
the Field Operations Directorate of the United States 
Citizenship and Immigration Services. In addition to the 
adjudication of applications and petition that require face-to-
face interviews, such as adjustment status and naturalization, 
Field Operations is the directorate responsible for making 
decisions on certain deferred action requests made to USCIS 
field offices for both military deferred action and nonmilitary 
deferred action, which is the subject of today's hearing.
    My directorate does not decide applications or renewals of 
deferred action for childhood arrivals, or DACA, or other 
deferred action requests required by statute, such as those 
related to the T or U nonimmigrant classifications.
    At the outset, I want to restate what DHS relayed to the 
committee last evening. Because a lawsuit has been filed 
against USCIS regarding the issues being discussed at today's 
hearing, I will be limited in what information I can provide in 
response to questions today.
    Deferred action is a discretionary act of administrative 
convenience by which DHS may delay or decline to exercise 
immigration enforcement authority in a given case. Deferred 
action is a discretionary decision made on a case-by-case 
basis. Deferred action is not an immigration benefit or 
specific form of relief. It is a decision not to act.
    Deferred action does not provide lawful immigration status, 
and it does not excuse any periods of unlawful presence before 
or after the deferred action begins. Importantly, deferred 
action can be terminated at any time at the agency's 
discretion.
    To better align USCIS with its mission of administering our 
Nation's lawful immigration system, on August 7, 2019, USCIS 
determined that field offices would no longer accept requests 
by nonmilitary persons for deferred action. To be clear, this 
does not mean the end of all types of deferred action.
    This redirection of agency resources does not affect DACA, 
which remains in effect according to the nationwide injunction 
while cases go through the court system. It also does not 
affect other deferred action requests processed at USCIS 
service centers under statute or other policies, regulations, 
or court orders.
    Keep in mind USCIS does not enforce orders of removal. As 
deferred action is largely a law enforcement tool used to delay 
removal from the United States, USCIS has not historically 
received many nonmilitary, non-DACA deferred action requests. 
For the past few years, USCIS has received very few deferred 
action requests annually.
    Many nonmilitary, non-DACA deferred action requests 
received by USCIS are due to family support or medical reasons. 
This has been incorrectly reported or mischaracterized by the 
media as a medical deferred action program. To be clear, USCIS 
does not and has never administered a medical deferred action 
program.
    Again, deferred action related to military servicemembers 
and their families and DACA beneficiaries was not affected by 
the August 7, 2019, redirection of agency resources, and 
consideration of those cases is ongoing. In addition, all cases 
that were denied on August 7, 2019, are being reopened and 
reconsidered.
    Again, I want to emphasize that because a lawsuit has been 
filed against USCIS regarding deferred action, I will be 
limited in what information I can provide in response to 
questions today. I can tell you that I've had the privilege of 
working for USCIS and its predecessor, the Immigration and 
Naturalization Service, for 31 years. I am extremely proud of 
the work and professionalism I see every day by the employees 
at USCIS in service to our Nation. I will answer your questions 
as best I can given the current litigation.
    Thank you.
    Mr. Raskin. Mr. Renaud, thank you very much for your 
testimony.
    I'm going to begin by recognizing Ms. Wasserman Schultz to 
do her questions.
    So, just one question before she starts, were both of you 
able to watch the witnesses in the prior panel?
    Mr. Robbins. Some of the witness testimony but not all.
    Mr. Raskin. Okay. And, Mr. Renaud, you watched the 
testimony?
    Mr. Renaud. Yes, sir.
    Mr. Raskin. Okay. Very good.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Gentlemen, welcome to the Oversight Committee. We heard the 
argument today that ICE's ability to provide administrative 
stays of final deportation orders is sufficient to take the 
place of USCIS's deferred action process, but that is just not 
true.
    An individual can only request an administrative stay of 
removal from ICE after that person has completed deportation 
proceedings and received an order of removal from ICE. In 
addition, individuals who are ordered removed can face 
significant consequences, including ineligibility for a future 
visa or other immigration benefits.
    ICE also does not grant benefits to individuals, such as 
work authorizations or eligibility for health benefits. And 
finally, ICE administrative stays are only available in one-
year increments.
    Mr. Robbins, do you agree that an administrative stay of 
removal from ICE does not provide the same benefits to 
immigrants as the deferred action process at USCIS?
    Mr. Robbins. I can't speak as to the benefits that are 
provided based on the stay, but I can tell you that 
prosecutorial discretion, we use prosecutorial discretion from 
the point of arrest throughout the enforcement----
    Ms. Wasserman Schultz. Why can't you speak to the benefits? 
Because what I've just laid out--is what I've just laid out 
accurate, as far as your understanding, in the differences in 
the two processes?
    Mr. Robbins. My understanding is that--and I would have to 
defer to my colleague from USCIS when it comes to employment 
authorization--we do not adjudicate employment authorization. 
We do adjudicate stay requests, and we adjudicate them on a 
case-by-case basis.
    Ms. Wasserman Schultz. And they're only available in one-
year increments?
    Mr. Robbins. No more than one year.
    Ms. Wasserman Schultz. Right.
    Mr. Robbins. It could be less than one year.
    Ms. Wasserman Schultz. And ICE does not grant benefits to 
individuals like work authorizations?
    Mr. Robbins. We do not.
    Ms. Wasserman Schultz. Right. Or eligibility for health 
benefits?
    Mr. Robbins. We do not.
    Ms. Wasserman Schultz. And, Mr. Renaud, through the 
deferred action process, you do grant those things, correct?
    Mr. Renaud. Thank you for your question. If someone were to 
receive deferred action, they have the opportunity to apply for 
employment authorization. That is a discretionary decision made 
on a case-by-case basis as well.
    Ms. Wasserman Schultz. Right. And they're also potentially 
eligible for health benefits as well in that process, 
obviously, or they wouldn't be applying for deferred action?
    Mr. Renaud. I'm sorry. I can't speak to whether they're 
eligible for health benefits. We do not provide health benefits 
at USCIS.
    Ms. Wasserman Schultz. No, of course, you don't, but they 
would not be available for health benefits under a deportation 
order process, correct? Mr. Robbins?
    Mr. Robbins. We do not adjudicate health benefits----
    Ms. Wasserman Schultz. Right.
    Mr. Robbins [continuing]. Either, so I would not be able to 
answer that.
    Ms. Wasserman Schultz. So, although you won't come right 
out and say that the two processes are different, in detail you 
have just described that they are quite different, and one 
provides benefits and the other does not. One program is longer 
than one year, potentially, and the other is not.
    In fact, before USCIS ended the deferred action process, 
individuals could apply for deferred action before being 
ordered removed. When granting an application for deferred 
action, USCIS can also provide a family with work authorization 
allowing them to support themselves while their child receives 
the treatment they need. And USCIS deferral lasts up to two 
years, which allows for greater certainty to these families.
    Finally, a person granted deferred action by USCIS is not 
considered to be, quote, "unlawfully present in the United 
States, which can be an important factor in future immigration 
proceedings."
    Mr. Renaud, do you agree that those are meaningful 
differences between ICE administrative stays and deferred 
action by USCIS?
    Mr. Renaud. Not having expertise in administrative stays, 
I'm not able to compare and contrast the two forms of 
prosecutorial discretion.
    Ms. Wasserman Schultz. Well, I've just compared and 
contrasted them. Have I said anything inaccurate about the 
differences between the two processes?
    Mr. Renaud. Again, I can't confirm specifically how----
    Ms. Wasserman Schultz. You're not familiar with your own 
agency's procedures? I mean, is USCIS able to provide a family 
with work authorization allowing them to support themselves 
while their child receives the treatment they need? Is that 
something that USCIS does allow?
    Mr. Renaud. As I've testified, someone who is a recipient 
of deferred action, someone who has deferred action is----
    Ms. Wasserman Schultz. But also the parents can apply. A 
family can be----
    Mr. Renaud. Yes. Any individual for any reason who happens 
to have deferred action----
    Ms. Wasserman Schultz. And USCIS deferral does last up to 
two years, correct? Is that correct?
    Mr. Renaud. Deferred action is granted for periods not to 
exceed two years.
    Ms. Wasserman Schultz. Okay. Thank you.
    And finally, Mr. Renaud, do you agree that those are--
besides the fact that you've just outlined that there are 
meaningful differences, because speaking to the difference in 
the details that's very clear, are either of you aware of any 
plans by ICE to provide these additional benefits to families 
of critically ill children or others in the event that you 
shift to a process that has ICE deal with this enforcement 
mechanism?
    Mr. Robbins. So, DHS is still considering a pathway 
forward, and we're--those are internal discussions that we're 
not prepared to discuss.
    Ms. Wasserman Schultz. Okay. Well, I appreciate making sure 
that the information that arose during this entire hearing 
makes it very clear that what Mr. Homan indicated was not 
accurate and that these are very distinct and different 
programs, one that provides a lengthier period of certainty 
with benefits, the other that is simply an enforcement action.
    So, thank you, Mr. Chairman. I yield back.
    Mr. Raskin. And thank you, Ms. Wasserman Schultz.
    I'm going to recognize myself for five minutes now.
    Both of you gentlemen have done a good job describing the 
legal architecture of deferred action, at least from the 
perspective of the agencies. It's a discretionary matter that's 
conducted on a case-by-case basis, and you don't categorically 
exempt entire groups, if I'm reading you correctly.
    But what I don't get is what is the motivation behind the 
new policy? What's the rationale for the new policy? And I know 
some of my Republican colleagues were asking me to relay the 
same question. Why did all of this happen? Can either of you 
answer that? Mr. Renaud?
    Mr. Renaud. Unfortunately, we are not going to be able to 
answer that. Because of the ongoing litigation, we're not able 
to respond to that today.
    Mr. Raskin. What is the new policy, as you understand it, 
Mr. Renaud, because there's so much confusion around it?
    Mr. Renaud. Again, because the litigation specifically 
encumbers what the current policy is, as the committee was 
informed last evening by letter, these are areas that we are 
not going to be able to discuss--that I'm not going to be able 
to discuss today.
    Mr. Raskin. You can't tell me why there's a new policy, you 
can't tell me what motivated the new policy, and you can't tell 
me what the new policy is. I mean, is that a correct assessment 
of the situation?
    Mr. Renaud. That is my testimony, sir, yes.
    Mr. Raskin. Okay. Let's see. Well, Mr. Robbins, let me come 
to you, because I can see that there's an effort to find some 
shelter for the government in the idea of prosecutorial 
discretion. What would the prosecutorial benefit be in removing 
from the country, deporting from the country a young person who 
has cystic fibrosis or cancer or another serious disease?
    Mr. Robbins. So, I think it's safe that we can agree that 
when it comes to very sympathetic cases, that is exactly what 
discretion is for. ICE has, in enforcing immigration law, has 
always used discretion and will always use discretion moving 
forward.
    Mr. Raskin. So, what changed? Like, but why--I mean, I 
assume you saw the anxiety and the agony and the pain that 
these families are going through. What changed?
    Mr. Robbins. Well, currently ICE does not have a process, 
an application process or an adjudicative process for 
affirmative stays of deferred action. We use our prosecutorial 
discretion from arrest through removal and then we have the 
ability to adjudicate stay requests, and there's an application 
process for that process.
    Mr. Raskin. And therefore--but so what is the answer to my 
question of what has changed?
    Mr. Robbins. I can't speak to the rationale or what has 
changed in regards to the adjudication of the deferred action 
requests at CIS. I would have to defer that to my colleague.
    Mr. Raskin. Okay. Would you agree that there's been a 
change in the mood somehow that produced the writing of these 
letters?
    Mr. Robbins. I can't answer that question.
    Mr. Raskin. Okay. What would need to be done to get 
Homeland Security just to reverse this whole disastrous road 
that it went on when it sent out those letters?
    Mr. Robbins. Well, one thing--I mean, we are currently 
having ongoing discussions with DHS about our pathway forward 
when it comes to deferred action, and we're just not prepared 
to comment on that. Those discussions are ongoing.
    Mr. Raskin. I got you. Well, I appreciate your candor and 
your honesty about that. Can I just tell you, I know I speak 
for a lot of colleagues, certainly on my side of the aisle, and 
I suspect, but I don't want to say for sure, on the other side 
of the aisle, that this really is a moral crisis in the 
country.
    I understand that--you know, you've described the numbers 
of people affected as very few. And in terms of the overall 
number of people you've got to deal with, I understand that, 
but it's still 1,000 or more people. And, you know, as 
representatives in Congress, we hear from them and their 
families, and it's our job to take into account people's real-
life situations.
    So, anything that we can do to work with the administration 
to reverse this and to enter into discussions about new 
regulation or new legislation to bring greater clarity and 
transparency to the process, I think you'd find a lot of 
support here.
    But the United States of America is a big country. It's a 
great country, and it has got a big heart. And when the people 
of America see this kind of testimony--and we know that we're 
in the very forefront of medical and scientific progress in the 
world, and people come to America to get their lives saved and 
not to get their lives messed up, and I think that's why it's 
caused such crisis and anxiety not just in those families, but 
across the country and in Congress when we see this being done 
in the name of our people.
    So, let me just ask you finally, when will you be ready to 
conclude your deliberations with or without our assistance, and 
when will you be ready to answer our committee about what is 
the precise policy going forward, Mr. Robbins?
    Mr. Robbins. I'd love to be able to give you an answer on 
when that conversation would conclude. Those conversations are 
ongoing, and I don't have an answer for you.
    Mr. Raskin. Okay. Can you assure us that none of the people 
that we saw today or people in their situation will be removed 
from the country until you get back to us with a policy answer 
as to what the policy is?
    Mr. Robbins. Well, I can assure you that when it comes to 
ICE and our discretion, the people that--the population--and 
Mr. Renaud can correct me if I'm wrong--these are affirmative 
actions for deferred action. They are not in proceedings. They 
are currently--that is not a population that we currently 
target. But I do not have an exhaustive list of those people, 
of actually who has previously applied for deferred action. 
So,----
    Mr. Raskin. And you can assure us--I understand you can 
assure us that you're not targeting anyone in this situation 
for removal at this point?
    Mr. Robbins. I can assure you that enforcing immigration 
law is a very, very difficult responsibility that ICE does very 
professionally and with compassion. And this is a very 
vulnerable population that has never been--I mean, we would use 
prosecutorial discretion on cases very similar to these. I 
can't speak to these specific cases because I do not have the 
facts. But I can't assure you that every case that has applied 
through CIS deferred action program or process would not be 
removed. I just don't know all the cases.
    Mr. Raskin. Okay. Well, I appreciate the fact that you're 
telling me you're not ready really to articulate what the 
policy is, but I want you to know that we are going to be 
zealous and diligent as the Oversight Committee in making sure 
that people in this situation have their rights and their 
interests considered consistent with the values of the American 
people. So, thank you for your testimony.
    And I recognize now Ms. Pressley for five minutes of 
questioning.
    Ms. Pressley. Thank you, Mr. Chairman.
    Hello, gentlemen. I'm thankful we were able to have you 
before our committee today. I understand there was some 
frustration with the expediency and the urgency with which we 
were asking all of you to come, but I can assure you that 
whatever inconvenience you may have experienced certainly pales 
in comparison to the trauma and the fear and the inconvenience 
your medical deferred action denial letters have imposed on 
immigrant children and families.
    I'm sure you both know last month that I, along with almost 
130 of my House and Senate colleagues, sent a letter to your 
agencies demanding the reversal to end USCIS's processing of 
deferred action. Can you confirm whether your agencies will be 
meeting the questions that we outlined in that letter 
responding to our deadline by September 14? Mr. Renaud, Mr. 
Robbins.
    Mr. Renaud. I can't speak specifically of that----
    Ms. Pressley. Can you confirm receipt of the letter?
    Mr. Renaud. I cannot, but I know that when--I would not 
receive that letter directly, but I know that we take those 
letters very seriously and do everything we can to meet the 
established guidelines and deadlines.
    Ms. Pressley. And the deadlines, okay. All right.
    Mr. Robbins, are you under the same impression?
    Mr. Robbins. Yes, ma'am.
    Ms. Pressley. Okay. All right. Thank you. So, I have some 
additional questions that I'll seek some clarity on.
    Mr. Renaud, just a simple yes or no question, and, again, 
you're on the record here. Was this a policy change that was a 
result of a request from any high-ranking political appointee 
at the White House?
    Mr. Renaud. At the advice of counsel, I'm not able to 
discuss the reasons for any change in our----
    Ms. Pressley. Can you submit it in writing if you can't do 
it here on the official record?
    Mr. Renaud. I believe the issue is that we have pending 
litigation. I can certainly go back and consult with the legal 
team and determine whether we can provide that in writing.
    Ms. Pressley. I'll keep going.
    What office or internal department at USCIS did this 
directive come from?
    Mr. Renaud. I'm sorry, I didn't hear the question.
    Ms. Pressley. What office or internal department at USCIS 
did this policy change directive come from? Where did it come 
from?
    Mr. Renaud. Again, I'm not sure that I can answer that 
question at the advice of counsel.
    Ms. Pressley. You cannot answer the genesis of this policy 
and what office offered the directive. Is that correct?
    Mr. Renaud. Ma'am, I'm not an attorney, and I don't pretend 
to understand or know all the aspects of law.
    Ms. Pressley. Well, I'll make a request----
    Mr. Renaud. I know that when attorneys ask me or instruct 
me that there is some things when you are being--when you're in 
the middle of litigation that you should not speak on, then 
I'll abide by that.
    Ms. Pressley. All right.
    Mr. Renaud. I appreciate you understanding.
    Ms. Pressley. Respectfully, reclaiming my time. And I'll 
just make my request again that you respond to the letter by 
the deadline that we've already submitted that outlines a 
number of questions that gets to not only our request, but 
better understanding the origins of this appalling policy. And 
also, if you could respond to the questions that I'm asking you 
now, if you can't do it here officially on the record. Okay?
    Mr. Renaud. I understand what you're asking.
    Ms. Pressley. All right. Very good.
    Now that USCIS has been publicly shamed into processing the 
deferred action request that you had originally denied, how 
many requests has your agency processed since USCIS's September 
2 announcement? Can you tell me how many you've processed?
    Mr. Renaud. Since September 2, we have not issued any 
approvals or denials of deferred action for nonmilitary 
deferred action.
    Ms. Pressley. Okay. And what is the criteria in which these 
requests will be processed and how can your agency ensure that 
there is no retaliation against applicants?
    Mr. Renaud. Well, again, as my colleague testified, what is 
the path forward is, frankly, a subject of litigation also and 
it is deliberative at this point.
    Ms. Pressley. Can you provide a timeline for which families 
can expect to hear from USCIS on the status of their request?
    Mr. Renaud. I know that this is important to--it's 
obviously an important issue, but, no, I cannot give a 
definitive timeline.
    Ms. Pressley. And so these families are just hanging in the 
balance? Can you provide a timeline in the letter that you'll 
be responding to by September 14?
    Mr. Renaud. I do not know the answer to that question.
    Ms. Pressley. What is the geographic breakdown of where 
these patients are currently residing in the U.S., and are 
there particular areas that are more impacted? I'm trying to 
see if there are any trends here.
    Mr. Renaud. So, one of the challenges with how historically 
we've been looking at deferred action requests is that we do 
not have a form. There is no fee for the grant of deferred 
action. And we do not have a system in which to put these in. 
So, data related to the basis for the requests, which do vary 
or the--certainly geographic, to get to your question, the 
geographic distribution, we cannot be precise in that area, you 
know, in response to that question at all.
    Ms. Pressley. Okay. And just to reiterate again, to be 
clear, the deadline to respond to the letter that was 
submitted, signed by nearly 130 of my colleagues, a bicameral 
letter, the deadline is this Friday. And, again, can you commit 
to answering our questions by then for the record?
    Mr. Raskin. The witness may answer that question, so answer 
that question.
    Mr. Renaud. Well, I think I've answered it. I said that we 
will do our best. I have not seen the letter. I do not know, 
frankly, if we've received it yet, but I know that we take 
those letters seriously. Obviously, it's a serious issue, and 
we will do what we can to provide you the information in a 
timely manner.
    Ms. Pressley. Well, I don't want us to set a new precedent, 
because a moment ago, you said that it's been your experience 
that you do respond by deadline. So, let's not create a new 
precedent. So, I look forward to your responses.
    Mr. Raskin. The gentlelady's time is expired. Thank you.
    Mr. DeSaulnier, you are recognized for five minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    I want to thank the witnesses, and I just--your comment 
about moral crisis, Mr. Chairman, I think, is important for all 
of us to think about individually and collectively. I'm 
reminded of one of my favorite quotes from Dante. He says, "The 
hottest places in hell are reserved for individuals who remain 
neutral at times of moral crisis."
    I've tried to think about the people that we've interacted 
with your agency in San Francisco and how difficult it must be 
to carry out a policy that then turns out to cause the kind of 
anguish that came across Ms. Bueso, my constituent, and her 
mom, who testified from near where you are, Mr. Renaud, just 
next to you, that when she got the letter from your department 
of which you oversee, as I understand this department, her 
mother vomited in a hospital and then cried because they knew 
that was a death sentence. How do you respond to that as a 
human being?
    Mr. Renaud. These are not easy jobs for our officers in the 
field.
    Mr. DeSaulnier. No. I was asking for you personally. You 
have the title. You oversee this.
    Mr. Renaud. I am certainly----
    Mr. DeSaulnier. Was it a mistake?
    Mr. Renaud. I'm certainly empathetic to their situation.
    Mr. DeSaulnier. Was it a mistake, sir?
    Mr. Renaud. I don't----
    Mr. DeSaulnier. Was that letter a mistake?
    We heard from my colleagues on the Republican side, this 
policy was enacted was a mistake. Do you think it was a 
mistake?
    Mr. Renaud. I am an operator. I am not a policymaker. So, 
operationally, you know, my role is to comment on policy to the 
extent that we can make it operationally feasible or to 
indicate when it's not operationally feasible. I am not in the 
position professionally to pass judgment on whether I like or 
don't like a statute, a regulation, or a policy.
    Those are some of the hardest times in my career and in 
those of the people who work with me, where either we are 
required to grant the benefit to someone who we believe is a 
threat or we believe has secured a benefit through fraud 
despite our best effort.
    Mr. DeSaulnier. Excuse me, would you----
    Mr. Renaud. And it's also hard when we have to say no to 
someone with a very empathetic case.
    Mr. DeSaulnier. I was asking specifically on behalf of the 
person who lives in my district. Are you implying she's a 
threat to national security?
    Mr. Renaud. I am not implying that, no.
    Mr. DeSaulnier. So, you have said that your attorney can't 
answer questions because of litigation, but we've been told by 
the Supreme Court over and over again that private litigation 
shouldn't inhibit your testimony to Congress in our 
investigation. Have you been told that by your attorney that 
the Supreme Court actually contradicts the legal advice you're 
getting?
    Mr. Renaud. I was not told that by the attorney. I did read 
the response from the committee, though.
    Mr. DeSaulnier. Maybe you should get your own attorney.
    Do you know who made the decision to stop accepting the 
processing deferred action requests on August 7 that led to the 
letter?
    Mr. Renaud. Yes. That, as you just indicated, that is 
something that is under litigation that I'm not able to respond 
to at the advice of counsel.
    Mr. DeSaulnier. What role did the acting director play in 
the decision?
    Mr. Renaud. I'm sorry?
    Mr. DeSaulnier. What role did the acting----
    Mr. Renaud. Again, that, sir, is essentially the same 
question that I'm not able to answer.
    Mr. DeSaulnier. Mr. Robbins, was anyone at ICE involved in 
the decision?
    Mr. Robbins. Not that I'm aware of.
    Mr. DeSaulnier. Mr. Renaud, why didn't you make any public 
announcement or communicate with Congress about the decision?
    Mr. Renaud. I think that the nature of our announcement is 
also under litigation, and so at the advice of counsel, I'm not 
able to answer that. I appreciate you understanding.
    Mr. DeSaulnier. Did you do any internal studies about how 
many critically ill children or adults might die as a result of 
being forced to leave the United States under this new policy?
    Mr. Renaud. I think it's important to note that the denial 
of deferred action does not force the removal of any 
individual. No individuals, to the best of my knowledge, have 
even been issued a notice to appear, which commences removal 
proceedings, which could last months or longer.
    So, I don't believe that--if you're asking if we had 
analysis of how many people would be impacted by this, we had 
an idea of the number of--the size of the population who 
received deferred action. But, again, the reasons why the 
process was changed I'm not at liberty to say at this time.
    Mr. DeSaulnier. So, before that letter was sent out, was 
there any discussion anywhere about the consequences of that 
letter, and in the case of my constituent, that she existed and 
this might lead to her removal from the country which meant a 
death sentence, according to her doctor? Was anyone aware of 
that?
    Mr. Renaud. Again, the letter did not order their departure 
from the United States. So, I think that your question is 
missing a few steps in the process where there is----
    Mr. DeSaulnier. Well, why would you send a letter?
    Mr. Renaud [continuing]. Lots of room for prosecutorial 
discretion. USCIS could choose not to issue an NTA, and that 
person would never be in proceedings unless otherwise----
    Mr. DeSaulnier. Had you ever issued this letter with the 
content before?
    Mr. Raskin. The gentleman's time is expired. You can answer 
that question.
    Mr. Renaud. We have issued denial notices on deferred 
action requests. In fact, we historically have denied about 
half of the deferred action requests that we receive. There was 
a question earlier from one of the members that indicated that 
we see about 1,000 a year, that's about 1,000 applicants per 
year historically, and we have denied the majority of those, at 
least in the data that I see.
    Mr. Raskin. Thank you very much. The gentleman's time is 
expired.
    Ms. Ocasio-Cortez is recognized for five minutes of 
questioning.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Renaud, the Supreme Court has ruled several times that 
ongoing litigation is not valid grounds for resisting an answer 
to congressional questions. So, I was wondering, why are you 
citing those illegitimate grounds?
    Mr. Renaud. I'm not prepared or capable of arguing legal 
precedent with you. I'm here representing the agency and----
    Ms. Ocasio-Cortez. So, why did the agency change the 
policy?
    Mr. Renaud. I'm sorry?
    Ms. Ocasio-Cortez. Why did the agency change the policy 
with respect to deferred action?
    Mr. Renaud. Again, as I mentioned earlier, that is 
something under litigation that at the advice of counsel----
    Ms. Ocasio-Cortez. And as I mentioned, the Supreme Court 
has already--this has been sued. This very question has been 
sued on. We don't have to debate it. The Supreme Court has 
determined it, that ongoing litigation is not grounds to resist 
an answer to a congressional inquiry.
    So, I'll ask again, why did ICE change the policy?
    Mr. Renaud. Why did ICE change the policy?
    Ms. Ocasio-Cortez. Or rather, why was the policy around 
deferred action changed under USCIS?
    Mr. Renaud. Yes. I'm going to answer again, at the advice 
of counsel, I am not able to discuss that information.
    Ms. Ocasio-Cortez. Due to? What reason are you citing?
    Mr. Renaud. At the advice of counsel, I am not answering 
that question. I hope you'll understand and----
    Ms. Ocasio-Cortez. Actually----
    Mr. Renaud [continuing]. I don't know what else to say.
    Ms. Ocasio-Cortez.--because there's no reason being 
offered, we cannot understand.
    Mr. Renaud. I can only say that you're arguing with the 
wrong person, you know. I'm not in a position to----
    Ms. Ocasio-Cortez. All right, Mr. Renaud, I'll move on. 
Because there has been a lot of chaos caused by this policy 
change, and the administration, because they did not advise 
Congress ahead of time on how this would be enforced or what 
would happen, there are a lot of outstanding questions. So, 
hopefully these questions are relatively straightforward.
    Exactly how many cases will be reopened as a result of your 
agency's partial reversal on deferred action?
    Mr. Renaud. We have reopened every case that was denied on 
or after August 7. That total is--I don't have an exact 
number--it's approximately 424.
    Ms. Ocasio-Cortez. Will people who applied before August 7 
be allowed to submit new evidence if necessary or will their 
files be frozen as of August 7?
    Mr. Renaud. Typically, when we consider a request or a 
benefit application, we will provide the opportunity for the 
alien to augment the record if there is additional evidence 
needed.
    Ms. Ocasio-Cortez. Will the reopened cases be evaluated 
using the same standards and the same process that your agency 
previously applied to request for deferred action?
    Mr. Renaud. That question I'm not able to answer.
    Ms. Ocasio-Cortez. You cannot answer if you'll be using the 
same standards that you used before?
    Mr. Renaud. I cannot answer--I cannot answer questions 
regarding what standards we will be using going forward.
    Ms. Ocasio-Cortez. Will field officers still follow the 
process outlined in USCIS's standard operating procedures or 
will there be a new procedure?
    Mr. Renaud. I don't know. I am able to answer that, I 
think, I just don't know the answer. That depends on what the 
process will be. I think it's important to note that the--I 
know it came up in the last hearing the standard operating 
procedure. That essentially described the mechanics of how to 
process a case. It is not a guide to the use of discretion.
    Ms. Ocasio-Cortez. Will USCIS impose any limits or caps on 
the number of deferred action cases that may be granted from 
reopened cases?
    Mr. Renaud. I don't know the answer to that question.
    Ms. Ocasio-Cortez. Your September 2 announcement also 
stated, and I quote, "As USCIS' deferred action caseload is 
reduced, the career employees who decide such cases will be 
more available to address other types of legal immigration 
applications on a more efficient basis."
    The media reports indicate that USCIS receives only about 
1,000 medical deferred action requests each year. USCIS has 
about 19,000 employees and contractors that handle hundreds of 
thousands requests each year. So, are these 1,000 requests 
really such a large burden that they justify ending deferred 
action for people with serious life-and-death medical 
conditions entirely and risking their lives?
    Mr. Renaud. Well, as you know, speaking to the language in 
the letter, USCIS has a sizable workload and 1,000 deferred 
action requests equals about 2,000 naturalization applications 
in terms of workload. So, to the 2,000 people who we could have 
naturalized, you know, I think that those cases are pretty 
important to them as well.
    Ms. Ocasio-Cortez. Mr. Chair, I think it's important that 
we acknowledge here that we are getting open resistance that 
are citing illegitimate legal grounds, no legal grounds for 
resisting the answers to these congressional inquiries, no 
insight into the past rationale of these decisions, little to 
no insight into the future of these decisions. This is a threat 
to even the rule of law when it comes to U.S. immigration 
policy. How can people be in compliance or make an effort to be 
in compliance of the law if they don't know what that 
enforcement is or will be in the future?
    With that, I rest. Thank you.
    Mr. Raskin. The gentlelady's time has expired. I thank you 
for your comments. And it inspires me, actually, to close with 
another five minutes of questioning, and I invite any of my 
other colleagues who want to pursue it.
    We learned a lot with the first panel about how this 
program has traditionally worked, what people's expectations 
are. And I think a lot of us felt great pride that America 
could play this role for sick kids from around the world. We're 
seeing a little bit of a different America on display right now 
in this discussion of the chaotic and inscrutable rollout of 
this policy.
    And I don't mean to put all the blame on the two of you. I 
know this must be an uncomfortable setting for you to be in. 
You've been sent forward to defend policies that it doesn't 
appear were your idea in the first place. But I do have a few 
final questions I want to try to pursue with you.
    Our colleague Mr. Hice cited some data about the number of 
applicants and so on. That was not data I'd ever seen before, 
and I just wonder, could you share whatever data he was working 
from with us or did that come from another source? I don't 
know. Mr. Robbins?
    Mr. Robbins. I'm not familiar with the data that was 
discussed.
    Mr. Raskin. Mr. Renaud, did you know?
    Mr. Renaud. I would have to go back and look at the tape of 
the hearing, but certainly, if there's data, we can share data.
    Mr. Raskin. Okay. Let's see. Mr. Renaud, just to be clear, 
can you tell us who made the decision USCIS would stop 
accepting and processing the deferred action requests on August 
the 7?
    Mr. Renaud. No. Because of litigation and at the advice of 
counsel, I'm not able to.
    Mr. Raskin. Okay. For reasons that Ms. Ocasio-Cortez said, 
the litigation is irrelevant to the statement of a fact. So, 
that's been established, but could you tell us whether Ken 
Cuccinelli, the Acting Director of USCIS, played a role in this 
decision?
    Mr. Renaud. Sir, with all due respect, we sent a letter to 
the committee yesterday outlining how this testimony would go.
    Mr. Raskin. No. We determine how the testimony will go, not 
you.
    Mr. Renaud. I appreciate that you appreciate that this puts 
me in a difficult situation. But it shouldn't be unknown to 
you, you know, why or how I'm in this situation. So, no, I'm 
not able to answer.
    Mr. Raskin. No. Really, this is a great mystery to me. 
Ordinarily, when we ask government witnesses to come in, 
they're prepared to answer the questions of the committee. 
They're prepared to tell where policies came from. I'm baffled. 
I've never seen a situation like this before.
    But let me just at least for the record, and if you can't 
answer it, that's fine. Can you tell us what role Ken 
Cuccinelli, the Acting Director of USCIS, played in this 
decision?
    Mr. Renaud. No, sir, I'm not able to.
    Mr. Raskin. Can you tell us what role the Acting Secretary 
of Homeland Security, Kevin McAleenan, played?
    Mr. Renaud. No, sir.
    Mr. Raskin. Can you tell us the role that anyone at the 
White House, including Stephen Miller, the architect of 
immigration policy at the White House, played in this decision?
    Mr. Renaud. No, sir.
    Mr. Raskin. Okay. And Mr. Robbins forthrightly said he 
could not tell me why the policy was developed, where it arose 
from, or even what the policy is. And I just want to be clear 
for the record, if this is basically where you are too on it. I 
remember when I was in school learning that the five critical 
ingredients of history are the five Ws: who, white--who, what, 
why, where, and when. And I want to make sure it's the case 
that you can't answer any of these.
    Can you tell us why we have the new policy? Mr. Renaud, I 
was coming to you. Can you tell us why we have the new policy 
of rejecting the medical deferred action requests?
    Mr. Renaud. No. Because of the pending lawsuit and the at 
the advice of counsel, I'm not----
    Mr. Raskin. Okay. Can you tell me who ordered the policy?
    Mr. Renaud. I cannot.
    Mr. Raskin. Can you tell me where the policy came from?
    Mr. Renaud. For the same reason, I cannot.
    Mr. Raskin. Can you tell me when the policy was developed 
or when it will be finalized?
    Mr. Renaud. No, sir.
    Mr. Raskin. And can you tell me what the policy is?
    Mr. Renaud. Because of the pending litigation, I'm not able 
to share that information.
    Mr. Raskin. Well, I'm afraid to say this is the perfect 
Trump administration public policy. We don't know where it 
comes from. We don't know why we have it. We don't know who 
came up with it. We don't know when it was adopted or even if 
it was adopted. And we don't know what it is. And again, I 
don't mean to make you the fall guy. Obviously, you've been 
sent forth to give this testimony today, but it is the occasion 
for great frustration in the Congress of the United States, the 
representatives of the people.
    Can you tell me how families received denial letters 
because of the policy change? Mr. Renaud, do you know?
    Mr. Renaud. That I can tell you, so that the cameras left 
that I can tell you. 424, approximately 424 denial notices were 
sent on or after August 7.
    Mr. Raskin. And how many of the 424 have been reopened?
    Mr. Renaud. All 424.
    Mr. Raskin. Okay. If you were still trying to figure out 
what the policy is, why not then reopen all of the requests, 
including the ones that came in after August the 7th?
    Mr. Renaud. So, essentially we did. There were 
approximately 791 pending requests on August 7. We proceeded to 
deny 424, and then the balance, 300 something, we did not take 
any action on. Those--those remain pending, the 424 that we 
denied, we reopened. So, all of the cases that were pending on 
August 7 are now open active requests for deferred action.
    Mr. Raskin. Okay. And after August 7, are people still 
facing this 33-day cutoff?
    Mr. Renaud. At this point, no--there never was a 33-day 
cutoff. May I explain what the 33 days----
    Mr. Raskin. Please.
    Mr. Renaud. That was talked about a lot. We--as someone in 
the previous panel indicated, I think they used the word 
``boilerplate.'' We use standard language in some of our denial 
notices. We have a standard process whereby if we are issuing a 
status denial or a denial of someone who is removable from the 
United States or who appears to be removable from the United 
States, such as being out of status, we include a statement 
indicating that essentially in 33 days, we will review their 
case, we will see if they have departed. If they have not 
departed, then we will make a determination of whether to issue 
a notice to appear commencing removal proceedings. That is an 
opportunity where we can exercise prosecutorial discretion and 
decide not to issue a notice to appear, in which case removal 
proceedings would not begin. And so that is the context of the 
33 days. No one was given 33 days to leave or else.
    Mr. Raskin. Okay. Thank you for that answer.
    My time has expired. I'm going to recognize the gentlelady 
from Massachusetts, Ms. Pressley, for another five minutes, if 
she seeks.
    Ms. Pressley. Sure. Thank you, Mr. Chair.
    You know, I wish I could feign just incredible surprise at 
the lack of responsiveness here, but it is par for the course 
with this administration we often have witnesses who come 
before us and I can't call it anything other than what it is, 
it's stonewalling, it's obstructing. And I just want to make 
something very clear: This is not about your answering just to 
this committee. You're answering to the American people. And 
this emergency hearing was called because of a rallying cry, a 
public outcry, an outrage.
    Now, our chairman rightfully says that it's unfair to make 
you all the fall guys, but I think it's not right to make you 
the fall guys to defend a policy that is--that you can't, not 
because you don't have the answers, but because the policy is 
indefensible. There's really not much that you could offer. But 
nevertheless we persist.
    And so let me just pick back up again on the 33 days. I 
want to talk about Jonathan Sanchez from my district, 16 years 
old, who endured a great--not knowing what his--what life holds 
for him in the future or if he will be able to preserve and 
maintain his life, sat here for a number of hours, enduring 
demoralizing and a dehumanizing environment by many of my 
colleagues on the other side of the aisle. And so if he could 
deal with that, you can deal with this.
    So, Jonathan Sanchez testified earlier today. Jonathan has 
cystic fibrosis, and he testified that doctors in Honduras 
where he was from did not even know what cystic fibrosis was. 
I'm not sure if you heard his testimony earlier, but his 
youngest sister died as a result of cystic fibrosis in Honduras 
because they did not understand her disease or how to treat 
her.
    Thirty-three days is certainly not enough time to arrange 
for travel, housing, medical equipment, translating medical 
records or the many other steps that would be needed to 
transport a critically ill child to another country. Simply 
put, it's a death sentence for many of these patients.
    Mr. Renaud, when the administration decided to end deferred 
action, was any thought put into what would happen to the 
critically ill children and their families?
    Mr. Renaud. I think that the thought was that we would--we 
would follow our notice to appear memo, which applies to all 
cases, which I described earlier. We would provide people a 
standard period of time by which--at which time we would review 
their case and determine whether it was appropriate in the 
government's best interest to issue them a notice to appear.
    Ms. Pressley. And again just on the timeframe, was that 
specific window considered sufficient given the extenuating 
circumstances and the fragility of these individuals' medical 
state?
    Mr. Renaud. I think, again, there seems to be an assumption 
in that question that there would be an NTA coming at the end 
of those 33 days. And, you know, what I'm saying is that that 
would be an opportunity for us to issue prosecutorial 
discretion and decide not to issue a notice to appear.
    Ms. Pressley. All right. Mr. Renaud, when USCIS ordered 
Jonathan to leave the country in 33 days, did you consider the 
fact the treatment for that disease is unavailable in Honduras?
    Mr. Renaud. I'm not sure if I'm saying this right, ma'am, 
but we did not order anyone to leave the country. That's not 
our role. If you go back to my written testimony, I describe 
what our role is and what it isn't. USCIS does not order people 
to leave the country.
    Ms. Pressley. It does seem we're missing each other here 
and, you know, I'm----
    Mr. Renaud. We are.
    Ms. Pressley. Yes. Because it's inconsistent with what the 
families testified to and the letters that they provided to 
substantiate and corroborate their experiences.
    Mr. Raskin. Will the gentlelady yield for a moment just to 
elaborate this point?
    Ms. Pressley. Absolutely. I yield.
    Mr. Raskin. The letter that you sent to Ms. Barrera said, 
if you fail to departing the United States within 33 days of 
the date of this letter, USCIS may issue you a notice to appear 
and commence removal proceedings against you with the 
immigration court. That's coming from USCIS, that's not coming 
from ICE.
    Mr. Renaud. That's all true.
    Mr. Raskin. So, in what sense are you not threatening to 
remove people from the country?
    Mr. Renaud. Well, again, I'm not an attorney, but, you 
know, words have meanings. What we indicate is that if they do 
not--what we indicate is that if they do not depart the country 
within 33 days, in that paragraph, they do not depart the 
country within 33 days, they may be issued a notice to appear. 
That is accurate. At that time----
    Mr. Raskin. Notice to appear and for the purpose of 
commencing removal proceedings.
    Mr. Renaud. It does not say they will. It does not say they 
must leave the country.
    Mr. Raskin. Okay. But with all due respect, Mr. Renaud, 
we're talking about people who have cystic fibrosis, childhood 
cancer and so on. You're sending this to them in a change of 
policy which clearly indicates that they're going to be removed 
or have a very heavy likelihood of being removed from the 
country.
    I'm going to yield another 30 seconds to my colleague. 
Thank you for yielding.
    Ms. Pressley. All right. Thank you, Mr. Chair.
    For the questions that you've not answered based on pending 
litigation, do you actually know the answers to those 
questions? Do you know the answers and you're not sharing them 
or you don't know? Do you know the answers to the questions 
that I've asked that you've declined to answer?
    Mr. Renaud. I understand your question. I was trying to 
decide if I knew--I do not know the answers to all of your 
questions, no.
    Ms. Pressley. To any of them?
    Mr. Renaud. I'm sorry?
    Ms. Pressley. To any of them? To any of the questions that 
I asked. Regarding the genesis of this policy? Was it ordered 
by a political appointee? What office did this come from? How 
many cases have been processed? Do you know the answers to any 
of those questions?
    Mr. Renaud. I certainly think that without a pending 
lawsuit, I would be able to provide additional information.
    Ms. Pressley. I yield.
    Mr. Raskin. Okay. The gentlelady yields, and we come to Mr. 
Grothman for five minutes.
    Mr. Grothman. All right. As I mentioned earlier today to 
the first panel, I think you folks do a tremendous job. I've 
been at the border three times this year. I know you do a very 
difficult job. Everybody who I have run into has been the 
pinnacle of professionalism. Everybody has exhibited 100 
percent concern about people in this country who are not 
citizens, even people who came here illegally, goes out of 
their way to provide medical care that would not even be 
available to American citizens, and they do it without 
complaining--they might complain a little, but they do it. So, 
I would like to thank you for all your agencies do.
    Looking at this letter that they're talking about, it 
appears to me this letter is a form letter. Do you think that's 
true?
    Mr. Renaud. That is correct.
    Mr. Grothman. Would anybody who made out this letter know 
that Ms. Barrera had a medical condition?
    Mr. Renaud. I think that the--when the letter was drafted, 
we certainly understood that there was a wide range of cases 
under consideration that would be denied, including some 
medical issues, yes.
    Mr. Grothman. Okay. But did you know specifically when you 
sent this letter to Ms. Barrera that she had a medical 
condition?
    Mr. Renaud. You know, I don't know the answer to that 
question. I would like to say, yes, I think that we probably 
pulled the case, looked at it, and decided to deny.
    Mr. Grothman. Okay. I think what you're trying to tell us 
here is that there are opportunities to appeal. And when you 
appeal, almost certainly--I shouldn't say almost certainly--
certainly the two people who were on the previous panel were 
not going to be kicked out of this country. Right?
    We have a process, many people have to be kicked out, some 
people shouldn't. Okay. As you work your way through the 
process, people like these two folks almost certainly will not 
be kicked out of the country. Is that accurate?
    Mr. Robbins. I think it's accurate to say that in my 
career, in my experience, when you run into a situation similar 
to the individuals that were here earlier, prosecutorial 
discretion would be used.
    Mr. Grothman. Right. And the point I'm trying to make 
here--and it kind of bothers me a little bit what the other 
party is doing here. I think they are trying to scare people in 
to believe that they are going to be deported when they're not, 
for political purposes. I mean, I don't know whether you guys 
feel in your position, you can agree with me or not agree with 
me on that, but if you have two people brought before this 
committee today, brought all the way to Washington, DC, and 
told that they should be scared to death that they're going to 
be kicked out of this country when as a practical matter 
they're not, I just think it's a little bit appalling.
    Do either of you in your two agencies believe that as this 
worked its way through the process, either of those two 
individuals are going to be kicked out this country?
    Mr. Robbins. I can't speak to the individuals that were 
here because I don't know the facts of their care, but my 
understanding--look, the reality is, is people with medical 
issues----
    Mr. Grothman. So, there are two young people with severe 
medical----
    Mr. Robbins. It draws at our heartstrings and I can't see 
them being removed in the future, but I can't speak to their 
specific cases. But cases similar to that, we would use 
discretion absolutely. As far as ICE is concerned, we would use 
discretion at the very point on whether we arrest, place----
    Mr. Grothman. Do either of you believe that these two folks 
are being kicked out--were going to be kicked out of the 
country?
    Mr. Robbins. I do not believe that someone----
    Mr. Grothman. They both had severe medical----
    Mr. Robbins [continuing]. In a similar situation would be--
we would use discretion to--use our limited resources to remove 
that individual and to prioritize our resources.
    Mr. Grothman. Mr. Renaud, same question.
    Mr. Renaud. I would agree with my colleague.
    Mr. Grothman. All right. So, I believe what's going on here 
today is for political reasons to embarrass President Trump. We 
have brought two people in here who are not going to be kicked 
out of this country but scare them to death to believe they 
might be kicked out of the country, and it just wasn't going to 
happen. There's no way it's going to happen.
    And I'll give you another question, because a lot of the--
and I asked this of the prior person here. Sometimes in this 
hearing it's more to this idea of minors without their parents 
are being pulled apart. In this country, in both of your 
positions, do you see minors in this country without their 
parents, with both their parents probably in other countries, 
unaccompanied minors?
    Mr. Robbins. I don't really understand the question. We 
have unaccompanied minors here in the country, yes.
    Mr. Grothman. Correct. And their parents are in other 
countries. In the U.S., does--do they immediately send them 
back to be reunited with their parents or do we try to tolerate 
putting them in this country?
    Mr. Robbins. Unaccompanied minors have due process and that 
due process is available to everyone illegal in this country.
    Mr. Grothman. So, minors come here and they can run away 
from parents, and right now, the United States doesn't do 
anything about it?
    Mr. Robbins. I think it's unfair to say the United States 
doesn't do anything about it.
    Mr. Grothman. They can wait up in this country for two or 
three years till they get a hearing?
    Mr. Robbins. So, you know, for unaccompanied minors that 
cross the border that we are aware of that are apprehended at 
the border, there is due process for those unaccompanied 
minors.
    Mr. Raskin. The gentleman's time has expired.
    Mr. DeSaulnier is recognized for five minutes.
    Mr. DeSaulnier. Thank you.
    I just want to go back to a comment you had just a little 
while ago, Mr. Renaud. So, am I correct in saying that someone 
knew about Ms. Bueso Barrera's medical condition when that 
letter was sent out on August 7? That's what you just 
testified. And remind you that she's asked for it four times 
and got accepted prior to this. So, what you just said is 
somebody pulled her file.
    Mr. Renaud. That is my best estimate of what happened. Yes, 
I believe that's----
    Mr. DeSaulnier. So, someone under your direction, 
supervision----
    Mr. Renaud. Yes, I think----
    Mr. DeSaulnier [continuing]. Pulled the file and knew what 
the circumstances were?
    Mr. Renaud. So, I think that they understood that they--
that there were cases pending, in process, and that USCIS had 
stopped issuing deferred action, and so they issued the letter. 
I don't want to pretend or accuse that individual or make it 
seem like that individual made a judgment call on her condition 
and in a heartless way did what they did. This is--we certainly 
are--we're USCIS. We're empathetic to people and their 
circumstance, but we have--you know, we are bound by the laws 
and the regulations and the policies that we have. And, you 
know, that is how we operate.
    As I said earlier, sometimes that means that we have to say 
yes to someone we'd rather not because we think that there is--
that there's fraud or misrepresentation or there could be harm 
to the country. It also means sometimes that we have to say no 
to people that, frankly, we feel bad for and we empathize with. 
That is--that's the hard work done by immigration officers 
across the country every day.
    Mr. DeSaulnier. So, she's been approved four times in the 
past. You're going to look at the file again. Is there any 
chance that she would be denied because the guidelines and the 
discretion has changed, given that she's been approved four 
times, including during this administration?
    Mr. Renaud. Again, I have not looked at her case. I 
understand what we heard today. I am not able to comment on----
    Mr. Raskin. Forgive me, I thought you just did comment in 
an answer to Mr. Grothman that you could not imagine that she 
would not be allowed to stay in the country. Are you changing 
that testimony?
    Mr. Renaud. I think my testimony was that I agree with my 
colleague. And I deferred to his expertise.
    Mr. Raskin. And that was what he said. He said he could not 
imagine a circumstance under which someone in her situation 
would be denied. Obviously, Mr. DeSaulnier has an intense 
interest in making sure that his constituent has the right to 
continue to get her medical services.
    Mr. Robbins. I was referring to removal. Now, what I'm 
saying is I don't--when you're talking about stayed in this 
country, would we remove someone in that situation? I cannot 
speak to her specific case. I do not know all the facts.
    Mr. Raskin. Okay. So, let's be clear then. Mr. Grothman was 
trying to say that this was some kind of big political show 
because there was no chance any of these people being removed. 
And now what we're getting is answers saying there's a chance 
that Mr. DeSaulnier's constituent would be removed. And she was 
terrified long before she came into this committee. We didn't 
know anything about this. There is terror among hundreds of 
people in an extreme medical condition.
    So, let's stop playing games. I liked it better when you 
guys just said you couldn't testify. Don't tell Mr. Grothman 
that there's no chance that people are going to be get kicked 
out of the country and then turn around and tell Mr. DeSaulnier 
that his constituent could get kicked out of the country.
    I'm sorry, Mr. DeSaulnier, your time is restored to you.
    Mr. DeSaulnier. Do you care to respond to that as a humane 
institution, Mr. Renaud or Mr. Robbins?
    I will tell you, Mr. Robbins, if you try to remove her, 
knowing my constituents, you better bring a lot of buses, 
because a lot of us are going to be arrested trying to protect 
her.
    Mr. Robbins. What I was trying to make clear, if you'll 
allow me, was I cannot judge this case here for the people that 
we're talking about. But what I said was, there are similar 
cases that have compassion, compelling humanitarian reasons, we 
use discretion every day. We have in the past enforced an 
immigration law, we will in the future. We continuously use 
discretion on who we arrest, who we place in proceedings, and 
ultimately remove. What I was saying was if there was a case 
similar to that, I cannot foresee a similar case being removed 
from the country, placed into proceedings, and ultimately 
removed.
    Now, I can't speak to her specific case, because I think 
it's unfair for me to try to adjudicate that here in this 
hearing room. But what I can say is that our officers, on a 
regular basis, use discretion on very sympathetic cases and 
humanitarian compelling cases. And our officers do it very 
well. They do it professionally with compassion.
    Mr. DeSaulnier. And I appreciate that. I'm sorry that many 
moral, ethical people who are in public service have to go 
through this. And to me, this was not contrived. I mean, these 
constituents came to me. We heard their testimony about 
vomiting in a hospital after she had gotten hours of treatment. 
But what's changed is this letter. And if either of you or 
anyone out there is listening--and, Mr. Chairman, given your 
expertise in law, I do feel sorry for these gentlemen being 
placed here, because I know where the responsibility is, in my 
view. But this is a heartless, cruel thing sent out.
    And, Mr. Renaud, knowing that somebody in our organization, 
I assumed you worked there a long time, knew what this would do 
and how this deviated from the previous four times she applied, 
we've got to get to the bottom of this and we've got to hold 
people accountable. And if they're not going to testify and 
use--use a contrived defense to give us the truth, so obvious 
facts, then I don't know how we pursue it. Do we find them 
individually in contempt of Congress? As my colleague said, 
they're responding to the American public. This--somebody needs 
to be held accountable for doing this and it needs to be 
corrected.
    So, I'm--to say that I'm disappointed as an American to sit 
here is an understatement that I don't know where our level of 
shame or decency will ever come to a point where all of us can 
say a letter like this is not in the spirit of America, whether 
you're a Republican or a Democrat, and somebody should be held 
accountable.
    Mr. Raskin. Mr. DeSaulnier, Ms. Pressley, I thank you both 
for your leadership in putting this on the agenda.
    Mr. Renaud, Mr. Robbins, I thank you both for appearing 
today. And--oh, and Ms. Ocasio-Cortez will get to close out 
with five minutes.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    I think one of the things that's difficult about this 
moment is that all of us like to think--all of us, first of 
all, want to do a good job. And I understand the difficult 
position that it is when people are career servants and when 
the politicization of this administration goes in so deep that 
it politicizes otherwise career positions. I understand, I 
respect that. But I also understand that at some point in our 
lives, we reach a moral crossroads.
    In the panel right before this one, we heard from a 
teenager whose little sister died because she couldn't have 
access to medication, and he has the same disease that she 
does; and a young woman who has been in this country for 16 
years, depending on medical treatment. And deporting her will 
kill her. This policy will murder her. And we are trying to get 
to the bottom of the origins of this policy change. And we have 
to ask you. And you all are citing counsel, which has given you 
illegitimate reasons to resist answering these questions. The 
Supreme Court has ruled on it. It's not a debate.
    So, let me see if I can summarize this testimony and see if 
there's any last chance that you all may want to change your 
answer. You will not tell us who decided this policy. You will 
not tell us who at DHS thought it was a good idea. You will not 
tell Congress if the White House ordered this policy. You will 
not tell Congress whether you vetted the policy with anyone 
before you put it in place. You will not tell Congress why the 
policy was changed. You will not tell Congress what the future 
policy will be. You will not tell Congress when that future 
policy will be announced, and you will not tell Congress when 
you plan to let these families with life-and-death diagnoses 
know their fates. Is that all correct?
    Mr. Renaud. I think on the balance it is correct, yes.
    Ms. Ocasio-Cortez. Now, the claims are based on this idea 
that there's ongoing litigation. The Supreme Court has ruled 
that ongoing litigation is not a reason to resist that answer. 
That has never been the standard under a Democratic or 
Republican Congress, and we have a job that we have to do too. 
And our job is ordered by the Constitution of the United States 
to conduct oversight on these conditions that will kill people.
    So, I would say we should have a chance to answer these 
questions by this Friday in response to a letter. One question 
that I have is, who is your counsel? Who advised you to do 
this?
    Mr. Renaud. We--I take counsel from the DHS General 
Counsel.
    Ms. Ocasio-Cortez. And which individuals at DHS General 
Counsel advised you to resist answering these questions?
    Mr. Renaud. I do not know who made that ultimate decision.
    Ms. Ocasio-Cortez. But which individual told you to do it 
specifically? Certainly someone told you; you're citing 
counsel. Was it a letter? Was it a meeting?
    Mr. Renaud. I will take that back and get back with you.
    Ms. Ocasio-Cortez. Was it a letter or a meeting?
    So, you won't even tell us who told you to defy the Supreme 
Court?
    Mr. Renaud. I was never told to defy the Supreme Court, 
ma'am.
    Ms. Ocasio-Cortez. To cite reasons in defiance of the 
Supreme Court.
    Mr. Renaud. So, to answer your question, I will take those 
questions back. And if I can provide those answers, I will be 
happy to do so.
    Ms. Ocasio-Cortez. All right. Thank you for agreeing to do 
that. And I think that we need to have these questions by this 
Friday. People, they're terrified. Their medications are on the 
line, their entire lives are on the line.
    And, Mr. Chairman, if I may, I think that we should 
consider--and I believe that after this hearing we have no 
recourse but to consider discussing a subpoena to get this 
information if we don't get it as requested.
    Mr. Raskin. Well, I want to thank the vice chair of the 
committee for her insight and views on this.
    Again, I want to thank both of you for coming and for 
participating as much as you felt that you could, given the 
institutional constraints you're open operating under. 
Obviously, this committee is not done with this issue at all. 
We will be in touch about next steps, but we do look forward to 
working with you to quelling the chaos that was unleashed when 
that letter was sent in August. And thank all of you for 
coming.
    Meeting is adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
